<html>
<title> - DEPARTMENTS OF COMMERCE, JUSTICE, AND STATE, THE JUDICIARY, AND RELATED AGENCIES APPROPRIATIONS FOR 2004</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]


                                                                      
 
                 DEPARTMENTS OF COMMERCE, JUSTICE, AND

                   STATE, THE JUDICIARY, AND RELATED

                    AGENCIES APPROPRIATIONS FOR 2004

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                       ONE HUNDRED EIGHTH CONGRESS
                              FIRST SESSION
                                ________
  SUBCOMMITTEE ON THE DEPARTMENTS OF COMMERCE, JUSTICE, AND STATE, THE 
                    JUDICIARY, AND RELATED AGENCIES

                    FRANK R. WOLF, Virginia, Chairman

 HAROLD ROGERS, Kentucky               JOSE E. SERRANO, New York
 JIM KOLBE, Arizona                    ALAN B. MOLLOHAN, West Virginia
 CHARLES H. TAYLOR, North Carolina     ROBERT E. ``BUD'' CRAMER, Jr., 
 RALPH REGULA, Ohio                    Alabama
 DAVID VITTER, Louisiana               PATRICK J. KENNEDY, Rhode Island
 JOHN E. SWEENEY, New York             MARTIN OLAV SABO, Minnesota      
 MARK STEVEN KIRK, Illinois         
                                                                        
                                                                        
                                    
 NOTE: Under Committee Rules, Mr. Young, as Chairman of the Full 
Committee, and Mr. Obey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
   Mike Ringler, Christine Kojac, Leslie Albright, and John F. Martens
                           Subcommittee Staff
                                ________
                                 PART 10
                                                                   Page
 Federal Bureau of Investigation..................................    1
 General Accounting Office........................................   45
 National Academy of Public Administration........................   48
 FBI Agents Association...........................................   67

                                   

                                ________
         Printed for the use of the Committee on Appropriations
                                ________
                     U.S. GOVERNMENT PRINTING OFFICE
 90-628                     WASHINGTON : 2004


                   COMMITTEE ON APPROPRIATIONS

                   C. W. BILL YOUNG, Florida, Chairman


 RALPH REGULA, Ohio                       DAVID R. OBEY, Wisconsin
 JERRY LEWIS, California                  JOHN P. MURTHA, Pennsylvania
 HAROLD ROGERS, Kentucky                  NORMAN D. DICKS, Washington
 FRANK R. WOLF, Virginia                  MARTIN OLAV SABO, Minnesota
 JIM KOLBE, Arizona                       STENY H. HOYER, Maryland
 JAMES T. WALSH, New York                 ALAN B. MOLLOHAN, West Virginia
 CHARLES H. TAYLOR, North Carolina        MARCY KAPTUR, Ohio
 DAVID L. HOBSON, Ohio                    PETER J. VISCLOSKY, Indiana
 ERNEST J. ISTOOK, Jr., Oklahoma          NITA M. LOWEY, New York
 HENRY BONILLA, Texas                     JOSE E. SERRANO, New York
 JOE KNOLLENBERG, Michigan                ROSA L. DeLAURO, Connecticut
 JACK KINGSTON, Georgia                   JAMES P. MORAN, Virginia
 RODNEY P. FRELINGHUYSEN, New Jersey      JOHN W. OLVER, Massachusetts
 ROGER F. WICKER, Mississippi             ED PASTOR, Arizona
 GEORGE R. NETHERCUTT, Jr.,               DAVID E. PRICE, North Carolina
Washington                                CHET EDWARDS, Texas
 RANDY ``DUKE'' CUNNINGHAM,               ROBERT E. ``BUD'' CRAMER, Jr., 
California                                Alabama
 TODD TIAHRT, Kansas                      PATRICK J. KENNEDY, Rhode Island
 ZACH WAMP, Tennessee                     JAMES E. CLYBURN, South Carolina
 TOM LATHAM, Iowa                         MAURICE D. HINCHEY, New York
 ANNE M. NORTHUP, Kentucky                LUCILLE ROYBAL-ALLARD, California
 ROBERT B. ADERHOLT, Alabama              SAM FARR, California
 JO ANN EMERSON, Missouri                 JESSE L. JACKSON, Jr., Illinois
 KAY GRANGER, Texas                       CAROLYN C. KILPATRICK, Michigan
 JOHN E. PETERSON, Pennsylvania           ALLEN BOYD, Florida
 VIRGIL H. GOODE, Jr., Virginia           CHAKA FATTAH, Pennsylvania
 JOHN T. DOOLITTLE, California            STEVEN R. ROTHMAN, New Jersey
 RAY LaHOOD, Illinois                     SANFORD D. BISHOP, Jr., Georgia
 JOHN E. SWEENEY, New York                MARION BERRY, Arkansas  
 DAVID VITTER, Louisiana
 DON SHERWOOD, Pennsylvania
 DAVE WELDON, Florida
 MICHAEL K. SIMPSON, Idaho
 JOHN ABNEY CULBERSON, Texas
 MARK STEVEN KIRK, Illinois
 ANDER CRENSHAW, Florida   
                                                                                                                                                                                                                     
                                                                                                            
                                                                                                          
                                                                                                                                                                                                                                                                                                                                                                                                            
                                                                                                         

                 James W. Dyer, Clerk and Staff Director

                                  (ii)


DEPARTMENTS OF COMMERCE, JUSTICE AND STATE, THE JUDICIARY, AND RELATED 
                    AGENCIES APPROPRIATIONS FOR 2004

                              ----------                              

                                        Wednesday, June 18, 2003.  

                    FEDERAL BUREAU OF INVESTIGATION

                                WITNESS

ROBERT MUELLER, DIRECTOR, FBI

                    Opening Remarks of Chairman Wolf

    Mr. Wolf [presiding]. The hearing will begin. I want to 
welcome all of the panelists this afternoon, and thank you for 
coming.
    As we said last year in the Subcommittee, we would commit 
to holding another hearing to get an update on the Federal 
Bureau of Investigation's ongoing restructuring. I would like 
to ensure that we have an honest dialogue today where we are 
not--and I want to stress again--we are not here to criticize 
the FBI, but to hopefully hear and offer constructive 
suggestions that will improve the FBI, which in turn benefits 
the entire country.
    I hope everyone will feel free to be as open and as 
forthright as you possibly can. I am viewing this as an outside 
advice and counsel for both the Director and the Congress. We 
do not have all the answers, clearly, and I think that can be 
doubly said. And we are therefore hoping to hear honest 
assessments on how the Bureau has changed over the last year.
    I would also like to thank all the panelists. I know there 
has been a great deal of time spent looking at various aspects 
of the reorganization. The General Accounting Office and the 
National Academy of Public Administration have worked 
diligently to follow the path of the restructuring, meeting 
several times with the FBI staff in Washington and around the 
country to gauge the ongoing efforts to transform the agency's 
information technology infrastructure and its culture.
    I also want to thank Nancy Savage, who is president of the 
FBI Agent's Association, for being here today. Your perspective 
is quite unique, as the changes that we are discussing today 
have impacted you and your members over the last year.
    More importantly, I want to thank Director Mueller, who I 
think has done an outstanding job. Director Mueller has not had 
an easy time since he started, a few days before September 11, 
2001. I believe the Director should be complimented for making 
some tough decisions and for the leadership that the Bureau has 
shown to take on the immense challenge of not just 
investigating crimes after they have occurred, but of 
preventing terrorist actions before they occur. This is truly 
probably the most difficult task for law enforcement: 
anticipating the enemy while not forcing law abiding citizens 
to forego their civil liberties.


                         information technology


    One of the areas that you have worked diligently to improve 
is information technology. The reorganization of the FBI and 
the need to improve its technology infrastructure was a 
priority before September 11, and it became urgent after 
September 11. You have made great strides in this area. We look 
forward to hearing about continued improvement as the year 
continues to unfold.
    I was disappointed, obviously, as I am sure you were, to 
hear that your latest CIO has already left. Hopefully you can 
have somebody appointed quickly and on the job without too much 
time elapsing.
    As you know, the Committee will continue to provide the 
resources. Quite frankly, we have actually provided more 
resources than the Administration has asked for. Now, I do not 
want to get you in trouble, and I am speaking out loud with OMB 
and with the Administration, but this is not a green eyeshade 
issue.
    Somehow I almost believe on this issue we should get the 
names of the OMB examiners and put them right here in the 
record so that if anything happens and there has been a lack of 
funding, that we know where the lack of funding comes from. It 
is not going to happen on my watch with regard to this 
Committee.
    And so, without getting you to break from the 
Administration--I think this is a little different than a 
program where they were going to put $3 million in a highway 
interchange or $2.5 million and whether something is considered 
pork or not pork and all those other issues.
    OMB never presents its face. And so, you are the person who 
gets all of the tough questions. And if something happens, it 
is Director Mueller's name who is in the paper, it is Director 
Mueller who goes out to speak before the groups. So really at 
some time I may very well get the names of the examiners and 
put them in the record so that if there is a deficiency or we 
find out we actually know where the problem was, because it was 
not with the Congress and not with you, but perhaps with OMB.


                             restructuring


    The restructuring that we approved last summer includes 
four new executive assistant directors: one each for criminal 
investigation, counter intelligence and counterterrorism, law 
enforcement services, and administration. This restructuring 
also saw the creation of two new divisions to address computer 
crimes and security, the creation of four new offices to 
address information technology, intelligence, records 
management, and to enhance communication and coordination with 
state and local law enforcement partners.
    You have recently asked to eliminate the executive 
assistant director for criminal investigations and establish an 
executive assistant director for intelligence.
    I agree that you probably need an EAD for intelligence, but 
I am not sure how well this additional division will improve 
coordination with the EAD for counterintelligence and 
counterterrorism.
    Also, not to have, with regard to abolishing the EAD for 
criminal investigation, not to have that position, when you go 
back and look at the organic act of the establishment of the 
FBI, it is based on criminal activity, and if you take away an 
EAD from criminal activity, the message that you send, I think, 
is really not a good message.
    So I believe that eliminating the Criminal Executive 
Assistant Director would be a mistake. For the FBI, the 
Attorney General is authorized to appoint officials to ``detect 
crimes against the United States, to conduct other 
investigations regarding official matters.''
    You have jurisdiction over 200 crimes. I do not believe 
that eliminating your highest criminal position is actually the 
best approach.
    As long as the FBI has at least half of its workforce 
devoted to these activities, and as long as the United States 
wants the FBI to be involved in fighting white collar crime, 
violent crime, organized crime, public corruption, and frankly, 
in many of these areas the FBI is the only agency that can do 
it.
    I believe you need a senior person responsible for these 
activities, and I do not believe it is appropriate to have 
these activities directly supervised by the Deputy Director.
    We would like to hear your comments about that. A quick 
couple of comments, then we will begin with Director Mueller, 
followed by GAO Comptroller Mr. Walker, and then Mr. 
Thornburgh, and maybe to save time both can actually come up at 
the same time, which may be helpful.
    Then we will round it out with Ms. Savage. And with that I 
recognize the ranking member, Mr. Serrano.


            congressman serrano on the fbi's reorganization


    Mr. Serrano. Thank you, Mr. Chairman. And welcome, Director 
Mueller.
    A year ago, the Subcommittee held its first hearing on 
reorganization of the FBI. The Chairman announced at that time 
that the Subcommittee, along with the GAO and NAPA, which he 
enlisted to assist the Subcommittee with oversight, would pay 
close attention to the FBI's organizational changes and their 
impacts on its missions, and we would hold a follow-up hearing 
a year later.
    The fact that the Subcommittee has taken and is taking the 
time to hold these hearings demonstrates how strongly Congress 
feels about the issues presented here.
    In response to the tragedy of September 11, Congress has 
spent a considerable amount of time examining the way our 
government is organized and how it has performed.
    The creation of the Department of Homeland Security is 
perhaps the most visible result, but the reorganization of the 
FBI, the world's premiere law enforcement agency, is a critical 
part of this process.
    Director Mueller has refocused management attention and 
investigative resources on our most important priority, 
fighting the war on terrorism. However, as we continue to 
examine the Federal response to terrorism, I feel that I must 
once again, as I have in virtually every hearing since 9/11, 
voice a note of caution.
    Our greatest achievements as a nation involve the 
advancement of the ideals that we hold dear: freedom, liberty, 
justice. But too often, particularly in times of crisis, we 
have failed to live up to these lofty ideals.
    Bobby Kennedy once said, ``I would like to be able to love 
my country and still love justice.'' It is this sentiment that 
drives my opinions and deliberations concerning the FBI.
    There will always be tension in a free and open society 
between national security and personal liberties. It is 
absolutely essential that we secure our nation. And I will do 
everything I can to support these efforts.
    However, it is not true that the price of security must be 
our liberty. We must not forget that we seek security not 
solely for its own purpose, but to preserve our liberty.


                      authority and responsibility


    The FBI's significant authorities and responsibilities make 
it a focus of any debate about government power and personal 
liberty. Throughout the bureau's history, some have feared it 
would or, at times, had become a national police force or a 
domestic intelligence agency, wielding power against the people 
rather than in their defense.
    And despite its many successes, the FBI has in the past 
been criticized for abuses of power. The Bureau's 
reorganization and refocusing, especially combined with the 
changes in the Attorney General's guidelines for domestic 
security investigations raises similar concerns about potential 
abuse.
    Director Mueller, I want you to know as I have told you in 
private that my concerns are not a criticism of you. I believe, 
as the Chairman does, that you have done a remarkable job under 
circumstances no one could have foreseen when you came to the 
FBI just days before 9/11.
    But I am not convinced that future FBI Directors will be as 
conscientious. And if the past is any indication, we may not 
know what abuses have been committed until well after the fact.
    Director Mueller, as we work to restructure the FBI to give 
you the tools to carry out your critical missions, I will 
remind you once again that with awesome power comes awesome 
responsibility. It is my hope that sufficient safeguards are 
being built into the Bureau's organization and culture and that 
we will be able to assure the American people that as it 
strives to protect them from future terrorist acts, the FBI is 
using its powers responsibly.
    As the Chairman said, we continue to be big supporters of 
yours, not only in words but in budgets. We are proud in this 
Committee to know that whatever the President asks for, we give 
you more. And there is a reason for that. We know the work you 
have to do is difficult.
    But please always remember that, at the risk of sounding 
like a broken record, I am fearful of what could happen if you 
do not use your power properly.
    Thank you, Mr. Chairman.
    Mr. Wolf. I thank you, Mr. Serrano. And I share Mr. 
Serrano's feelings too, and I know you do, too. I saw your 
statement before ACLU the other day.
    Why don't we begin. Your full statement will appear in the 
record. Both of us have read it, and if you can summarize, then 
we can go straight to the questions.
    Mr. Mueller. I have got a brief statement, Mr. Chairman, 
if----
    Mr. Wolf. Your full statement will appear in the record.


                 opening statement of director mueller


    Mr. Mueller. Thank you. And thank you Mr. Chairman and 
Congressman Serrano.
    I appreciate this opportunity to be here and to provide you 
today with a progress report on our ongoing efforts to 
reorganize and refocus the FBI. The hearing you convened last 
June helped set a positive tone for our refocusing efforts. 
Continuation of this oversight speaks highly of your commitment 
and interest in ensuring the success of the FBI. And I thank 
you for it.
    At the outset, I do want to express my appreciation to 
David Walker, and Dick Thornburgh and their staffs for their 
efforts in preparing the assessments and recommendations of the 
GAO as well as the NAPA. I know you will hear from both of them 
later this afternoon.
    It is our view that these assessments depict a fair 
characterization of our efforts over the past year in our 
effort to refocus the FBI. And as you read through these 
reports, you will find ample evidence of the progress we have 
achieved over the past year, but also constructive criticisms 
of our performance in areas where we need to accelerate our 
progress, and thoughtful, positive recommendations for 
proceeding on transforming the FBI.


                             reorganization


    My intent is to follow up on those areas where the GAO and 
NAPA believe our efforts need to be strengthened, particularly 
when it comes to strategic planning, human resources, 
technology, as well as management and performance metrics.
    When I appeared before the Committee last June, I 
characterized our proposal for reorganizing and refocusing the 
FBI as an evolving road map. I stated that we would need to 
make adjustments along the way to meet the changes in the world 
in which we must operate.''
    The FBI in June 2003, is a changed organization from what 
it was a year ago, when you convened that first oversight 
hearing on our revised strategic focus and our reorganization 
proposal.
    As has been mentioned, we are refocusing our mission and 
priorities, in recognition of the terrorist attacks of 
September 11, as well as in recognition of the changing 
national security threats and crime problems that face the 
nation.
    I think I can state, and I do believe, that the GAO and 
NAPA will confirm this to you, that these new priorities have 
been embraced and adopted throughout the FBI. Our employees are 
aware of them and that we are acting according to these 
priorities.
    In fact, if I might, there is one statement I believe from 
the NAPA report that sticks out in my mind because there have 
been questions raised in the past, and that is where they say 
that ``the FBI personnel are energized and embracing, not 
resisting, change.''
    Over the past year in furtherance of this change, we have 
taken a number of steps to realign our work force to address 
these new priorities. As noted in the two reports, we 
permanently shifted over 500 field agents from criminal 
investigations to augment counterterrorism investigations and 
activities, implement critical security improvements and 
support the training of new special agents at the FBI Academy.


                         redirecting priorities


    Second, during 2002, we also permanently shifted another 
167 agents from criminal investigations to counterintelligence, 
to begin implementation of a comprehensive strategy to address 
the FBI's second priority.
    Implementing the revised FBI priorities and redirecting the 
FBI work force toward these priorities required a concurrent 
shift in how the FBI manages certain cases from a national 
perspective. Beginning in 2002, we initiated a series of 
changes to strengthen the FBI's national management and 
oversight of counterterrorism, counterintelligence and 
cybercrime cases and activities.
    As we look into the future, these cases and investigations 
are critical to the very foundation of the FBI's ability to 
protect national security. They involve parallel efforts in 
multiple locations within the United States and often in 
foreign countries and require extensive coordination and 
collaboration with the Intelligence Community and with our 
state, municipal and international partners.
    These cases are also complex in terms of interrelationships 
among groups and individuals, a complexity that requires 
continuity and specialized expertise and skills. And most 
importantly, these cases require an organizational capacity to 
quickly respond and deploy personnel and technology to emerging 
and developing situations.
    And these changes were intended to create a centralized 
body of subject matter experts with historical case knowledge 
that often in the past had been largely resident in a few FBI 
offices.
    So of the many changes instituted over the past year, I 
believe that these were among the most significant in terms of 
changing the managerial environment within the FBI.
    And at this point, I think we have enjoyed considerable 
progress in demonstrating the benefits of this shift in case 
management for national operations and investigations.
    And I will tell you that it is our special agents and 
Special Agents in Charge who deserve credit for embracing this 
new concept.


                restructuring and reengineering the fbi


    Among the steps we have taken over the past year has been, 
as you pointed out, Mr. Chairman, a restructuring of FBI 
headquarters. The old FBI headquarters structure was found to 
be ineffective given our growth and changed priorities by 
outside management consultants and others. I am pleased that 
NAPA and GAO will report that we have made significant progress 
with these changes, as well as changes in other areas of the 
Bureau.
    In some areas, such as in the Security and Investigative 
Technology Divisions, we need to do a better job of filling 
vacancies. And we have taken steps to ensure that these 
critical positions are staffed as soon as possible.
    The President's 2004 budget includes requests to continue 
the staffing of our Counterterrorism and Security Divisions. 
And I am hopeful that the committee will be able to support 
these requests.
    The new expectations facing the FBI in terms of its mission 
and priorities have made it clear that the FBI must not only 
rethink its organizational structure, but also its basic 
business practices and processes. The reengineering initiatives 
that we began in 2002 are part of our commitment to creating an 
environment of change.
    The reengineering initiative began with 38 projects. This 
initial group of projects focused on a number of investigative 
infrastructure and management problems and situations that 
require near-term triage so that we can make improvements and 
address immediate gaps in our organizational capacity.
    Of these initial projects that we have undertaken that are 
described in, particularly, the GAO report, as well as the NAPA 
report, we have made significant progress, particularly in 
modernizing FBI's information technology and bringing new 
technology to bear in support of terrorism analysis, terrorist 
document and communications exploitation and records 
management.
    And additional improvements will be coming on line, such as 
the Virtual Case File, as well as other elements of the Trilogy 
Project that will bring us into the 21st century. And I am 
pleased with those developments in the improvement of our 
information technology infrastructure.
    I am also encouraged by the plans and ideas generated in 
the FBI and being put into place in terms of training, 
succession planning and developing specialized career paths. 
These are important steps towards ensuring that the FBI's work 
force of the future is prepared to meet those challenges that 
we will face, not only today, but tomorrow.
    Part of the FBI's legacy of success has been its ability to 
adapt to changes in the world in which it operates. And that 
ability is now being tested under extreme circumstances. Change 
is needed in many areas, and it is needed quickly.
    The reengineering initiative serves as a platform for 
evolving management strategy that will set a path for what 
needs to be done, put the focused effort on these issues and 
get results.

                 NATIONAL SECURITY AND WAR ON TERRORISM

    Let me, if I could before closing, advance a couple of 
points, if you would indulge me, sir.
    The operational challenge that we will face over the next 5 
to 10 years shapes our thinking today. And the most significant 
threats that we face are threats to the national security. As 
the United States continues to be dominant in political, 
military, economic and technological power, we will continue to 
be the target of terrorists and others around the world.
    As foreign countries seek to establish themselves as 
regional powers, the potential for the proliferation of weapons 
of mass destruction looms as a threat to all nations. And 
additionally, foreign intelligence agencies will continue to 
target United States defense and commercial industries in an 
effort to steal our secrets and diminish the technological and 
military advantage that the United States holds over its 
adversaries.
    Along with that, another trend that will define the FBI of 
the future is the continuing globalization and the expansion of 
the global economy. Globalization and the growing global 
networked economy will present new opportunities, targets, and 
environments for a full range of illicit activities. A global 
networked economy will present criminals in foreign countries 
with opportunities to commit crimes against the United States 
companies and individuals without ever leaving their home 
countries. An increased reliance on global networks for 
commerce and business will make that environment a more 
attractive target for terrorists, foreign intelligence agents, 
criminals and others.
    Globalization and networking of criminal enterprises, 
especially in activities considered threats to our homeland 
security, mandate greater collaboration between the FBI, the 
Intelligence Community and law enforcement. It requires that 
the FBI continue to strengthen and build international 
partnerships with our foreign law enforcement counterparts.
    We have found since September 11 that such partnerships 
have been exceptionally productive in the war on terrorism. Our 
success in preventing terrorism and other crimes will depend in 
the future upon having a presence in those foreign countries 
that are most likely to be viewed by terrorists as potential 
staging areas for their activities.
    Investments in improving foreign law enforcement 
capabilities through training and outreach will, in the long 
term, improve the quality and degree of cooperation we receive 
on matters of common interest.
    Given these challenges in both security and criminal 
challenges to the nation, I would like to suggest that the 
future success of the FBI depends on our strengthening two key 
capacities.
    First, we must strengthen our ability to recognize and 
understand current and future national security and criminal 
threats. As you have pointed out, sir, the FBI is recognized 
for its excellence in collecting information. But now the FBI 
must achieve that same recognition for excellence in our 
ability to produce intelligence.
    We are taking the steps necessary to strengthen that 
capability by establishing a national intelligence program that 
is on a level equal to that of our traditional investigator 
programs, but it will be essential to our success in the 
future. It will ensure that all critical information is 
identified, collected, evaluated, analyzed and disseminated to 
the widest extent possible.
    We must achieve an enterprise-wide capacity not only for 
the terrorism area but also in all of our investigative 
programs. Utilizing the new intelligence capabilities, we must 
become better at targeting not only the most significant 
terrorist threats, but also the most significant criminal 
problems facing us not only in the United States but overseas.
    The President's 2004 budget request recognizes our need to 
be flexible in dealing with national security and criminal 
investigative missions. We hope that we will, as I know we have 
in the past, receive the support of this Committee for our 
request.
    In closing, Mr. Chairman, I would just like to acknowledge 
the leadership and support that you and the Committee have 
provided to the FBI. The recognition by Congress for the need 
to fund critical investments in both people and technology are 
making a difference every day in each of our FBI field offices, 
not only within the United States but in our legates around the 
world. And for that, we thank you. And I welcome your comments, 
suggestions and questions.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 

    
        
                       FBI AGENT STAFFING LEVELS

    Mr. Wolf. Thank you, Mr. Director. I will go through a 
number of questions fast, if I can, and leave plenty of time.
    On Monday the FBI released a statement saying that overall 
crime is down in 2002 as compared to 2001. That is all crime. 
However, when you look at the murder rate, 108 more people were 
killed nationwide, 13,940 people in total, than last time.
    There are many other areas. There is the area that is 
sexual trafficking. There is the area of white collar crime. 
Does the Bureau need more agents than it currently has when you 
look at the call that you are now being asked with regard to 
preventing terrorism and maintaining a presence in traditional 
crime? Do you think the Bureau needs more agents? You have 
roughly what, 40,000 New York City policemen? Is that about 
right?
    Mr. Mueller. That is approximately right. It is my 
understanding.
    Mr. Wolf. For the boroughs of New York. They do not go to 
Albany or Schenectady; they just go to New York City. You have 
about 11,000 agents, and you go all over the country, and you 
have Legats in 35, 36 other countries. So do you need more 
agents?
    Mr. Mueller. We do and we have asked for them in the 2004 
budget. We received additional allocations of agents in the 
2003 budget. I will tell you that, as I think I told you last 
year, I believe that we have to monitor our allocation of 
agents to various programs month by month, quarter by quarter, 
year by year.
    If you look at the chart that is incorporated into the GAO 
study, you will see that we have had two substantial peaks over 
the last 22 months where we have taken agents to handle 
counterterrorism.
    One was quite obviously in the wake of September 11, where 
at one point we had almost 7,000 agents of our 11,500 
addressing counterterrorism matters.
    And the other peak, certainly less of a peak than we saw in 
the wake of September 11, came in advance of the incursion into 
Iraq, where we had substantial responsibilities in ensuring 
that the country was not beset by terrorist acts at that point 
in time.
    Last summer between the two peaks, our allocation of agents 
to counterterrorism dropped not to where the funded staffing 
head would be, but dropped significantly. And I am waiting to 
see that drop since we have come off the hostilities in Iraq to 
levels that would be those levels that we would be looking at 
for counterterrorism in the future.
    And I think we have to monitor that and to see exactly the 
number of agents we need, not only on our first two priorities, 
counterterrorism and counterintelligence, but also to see where 
we need to put agents on a number of the other priorities.
    I have told, and I believe it to be appropriate, each SAC, 
Special Agent in Charge, that if you have a counterterrorism 
lead it has to be addressed. It cannot go unaddressed. That is 
our first priority.
    And the priorities I believe should drive the allocation of 
personnel.
    We have tried to focus our efforts in other areas to be far 
more, all I can say is, focused on utilizing our capabilities, 
whether it was addressing homicides, narcotics, or trafficking 
in persons. And we continue to have to do that.
    The bottom line is yes, we could utilize additional agents. 
We have made requests for additional agents. And I will 
continue to monitor it to see how we need to adjust the 
programs and whether we need to come back to the Justice 
Department, Office of Management and Budget (OMB), the 
Administration and the Committee for additional agents down the 
road.

                           PUBLIC CORRUPTION

    Mr. Wolf. I have talked to a lot of agents since the 
hearing last year, and almost every agent I speak to, one, they 
say they like Mueller. So that is a good sign. And they were 
telling me one way or the other, they said they think you are 
doing a good job, which is important.
    Secondly, they tell me they are stretched. And I know that 
if you really know you are talking about it and you go in, 
there are cases, public corruption cases, that have not been 
investigated that should have been investigated if we were not 
going through 9/11. There were probably public officials that 
are out on the streets today that may not be out on the streets 
if you were not faced with a 9/11.
    There are certainly organized crime issues that could have 
been developed. Also, with regard to the drug issue, although 
you have taken 400 agents off the streets with regard to drugs, 
DEA has only added about 300 and some back in.
    So there is a deficiency there, and either these agents 
were doing nothing, which it is not so, or they were doing 
something.
    So there has been a diminution of that, and as I talk to 
the agents they tell me that there has, they say sometimes they 
will come in and they will take a guy off of this, they will 
take a guy off of that, they will take somebody off of this, 
and they are not working on that case.
    And if you were from a family with regard to a murder, if 
you had somebody with regard to sexual trafficking, if you had 
somebody with regard to public corruption.
    And so, if you cannot deal with these cases, my sense is 
that may be a problem.
    Now, will there be a drop-off of terrorism? The answer is 
no. I was in Iraq two weeks ago; believe me, we are going to be 
there for a long, long time.
    Things are slipping in Afghanistan. Just walk through a 
refugee camp, a Palestinian refugee camp, in Lebanon.
    I mean, the world is changing, so there will not be a 
diminishing for a long period of time with regard to the threat 
of terrorism.
    Yet, people are still being killed, there is organized 
crime, there are all these other crimes, and I really worry, 
and having listened to the agents, these are not my ideas, they 
tell me I am being stretched, I am pulled here, I do not know 
what they are doing over there, they pulled three guys off of 
this, they pulled two guys off of this.
    When you pull two and three and four and five in an office 
in a city somewhere, that is work that was not, that should not 
be, or was not being, or is not being done.
    And I would bet there must be a memorandum somewhere that 
U.S. Attorneys are no longer bringing white collar cases under 
a certain limit because there is not an investigation being 
taken place there.
    I would bet in certain areas, without getting too specific, 
there are times when the Bureau was just not going there, and 
therefore the U.S. attorneys said the Bureau is not going 
there, we are not going to bring those cases.

                PUBLIC CORRUPTION AND WHITE COLLAR CRIME

    Mr. Mueller. Let me, respond to a couple of points. Public 
corruption is our number one criminal priority. There should 
not be a public corruption case that comes to our doors that is 
not addressed.
    And if you look at white collar crime, there are areas in 
which in the past we have done smaller bank embezzlements that 
we just cannot afford to do in the future.
    And I have given direction to the SACs to focus their 
priorities in a substantial white collar crime case, for 
instance, the cases that we have, whether it be Enron or Health 
South or WorldCom or Tyco or any of these other cases where 
there is a necessity of having the FBI expertise. We have put 
the resources on those cases that they need to do it, as well 
as and substantial white collar crime cases.
    So we have had to focus our priorities. We have to go back 
to the field, and some of the cases that agents have done in 
the past, that local law enforcement wishes us to do such as 
smaller white collar crime cases that we are not going to be 
able to do in the future.
    Bank robberies, are good investigative cases for us, but we 
have to pick and choose.
    If there is a particular city where there is a substantial 
problem with bank robberies, the Special Agent in Charge has 
the discretion to prioritize it in that particular city.
    But in other cities, where state and local law enforcement 
can handle it, we have had to defer to state and local law 
enforcement. So we have to do a better job of allocating our 
work force to the priorities that we identify down the road, 
but by the same token we are stretched, and in order to 
maintain our capabilities in certain areas, we do need 
additional resources.
    And down the road I may well be back before you asking for 
additional resources.

             ESTABLISHMENT OF DOMESTIC INTELLIGENCE AGENCY

    Mr. Wolf. Well, I think you do, too. There has been much 
talk about establishing, and I know what your view on this is, 
but I want to get it on the record, a domestic intelligence 
agency akin to England's MI-5, or the Canadian Security 
Intelligence Service.
    Both of these domestic intelligence agencies were at one 
point of a larger organization, much the way the FBI is 
currently organized. Should we establish a separate domestic 
intelligence service?
    If so, why? And if not, why not?
    Mr. Mueller. No, I do not believe we should, for a variety 
of reasons. The first is that you would have to replicate much 
of what we have in terms of resources, manpower, and technical 
capabilities. So, number one is you would have to replicate the 
technological capabilities of doing electronic surveillances, 
the physical surveillance, and aerial surveillance. All of the 
resources that we have that we can shift back and forth between 
our various programs would have to be replicated in a separate 
agency.
    We have the benefit of having the capability of looking at 
a set of facts or circumstances from the intelligence point of 
view and then understanding that, particularly when it comes to 
terrorists, at some point in time, you have to neutralize or 
address the possibility that this terrorist will take action.
    We have under one roof the decision makers who can look at 
it from the intelligence point of view in gathering that 
intelligence, yet on the other hand, invoking the criminal 
processes to address that threat to the nation.
    If you look at CSIS in the Royal Canadian Mounted Police 
RCMP or MI-5, the New Scotland Yard, there has to be a set of 
protocols that address as how you are going to pass off the 
intelligence case to the criminal case. And I think you will 
find that whether it be in the UK or Canada, they are 
establishing those capabilities where they can have that 
integration that we already have.
    The last point I would make, and I could make several 
others, but I believe that it is important to understand the 
FBI agents' training. The FBI is trained to operate within the 
Constitution. There are substantial hours in new agents' 
training addressed to the role of a law enforcement in the 
United States within the parameters of the Constitution. And I 
would be very concerned about an agency that does not have the 
same degree of training and understanding of the necessity to 
operate within the Constitution.
    We have made mistakes in the past, without a doubt. And we 
have tried to learn from those mistakes over the years. All of 
our agents get substantial training on the law and what it 
means to operate within the Constitution. Our agents are hired 
beginning at age 23 and to be given a gun and a badge is being 
given a substantial responsibility to affect the lives of 
others. We want maturity, judgment and the understanding that 
you operate within the confines of the Constitution.
    To assure that it is driven home to our agents, each of our 
new agents goes to the Holocaust Museum. So each one of them 
understands what happens when there is a police agency, 
unbridled and untethered to a Constitution. And understanding 
that we do, as Congressman Serrano points out, as you do, 
balance both the safety and security of the United States as 
well as our civil liberties.

                 TERRORIST THREAT INVESTIGATION CENTER

    Mr. Wolf. Well, I share that. And two more questions, and 
then I will recognize Mr. Serrano.
    I think you are cross-pressuring that on the Terrorist 
Threat Integration Center (TTIC), because the TTIC is now in 
the (CIA). The CIA does not have those requirements. When TTIC 
was originally set up, it was a great idea. I commend the 
administration for it. Have the CIA, the FBI, DIA all together. 
It is now located at the CIA. The person who runs it is a CIA 
employee. The person who runs it reports to George Tenet.
    Now you are going to relocate it out of the building. But 
you are now talking about moving your people over there. And so 
you are blurring the lines. I thought the TTIC was originally 
supposed to be set up, and the Administration hasn't said 
anything since, to be totally and completely independent, a 
coordinating group. There would be someone from the CIA, 
somebody from the FBI, somebody from DIA and somebody from 
Homeland Security, one director reporting to everybody to share 
and make sure the information is shared.
    But now you are sort of being pulled in, and this is sort 
of a CIA operation, and not an FBI operation. You are not an 
equal partner there. I have been out there. I have talked to 
the people.
    And lastly, as you relocate your people and pull them up, 
your counterterrorism people, and move them away, what does 
that mean with regard to the FBI?
    Mr. Mueller. Well, just a couple of points of reflection. 
In my mind, there is a substantial difference between 
operational and analytical. TTIC is an analytical capability. 
TTIC has no operational capability at all. To the extent that 
there was a blurring of operational capability, I would be very 
much concerned.
    I do believe, however, it is in the best interest of the 
country to have a single analytical capability when it comes to 
international terrorist threats, which is the----
    Mr. Wolf. I agree.
    Mr. Mueller. The deputy to TTIC is an FBI agent. We have a 
number of agents there. We have a number of analysts there.
    Mr. Wolf. You do not have nearly the number of agents as 
they have CIA employees.
    Mr. Mueller. That is true, absolutely.
    But it is an analytical product addressed to international 
terrorism. And what it combines is the capability of taking 
information, most of it in the wake of September 11, maybe even 
prior to September 11, comes from overseas, and couple it with 
that intelligence information that is developed by us 
domestically to develop an analytical product.
    And so long as it does that and does not engage in the 
operational activity, which in my mind should stay separate in 
the two organizations, then I am comfortable that we are 
advancing the public's interests in having that combined 
analytical product.

                  RELOCATING COUNTERTERRORISM DIVISION

    Mr. Wolf. And when you relocate your counterterrorism 
division over there with them, does that create problems?
    Mr. Mueller. I think there are some downsides. But I think 
there are some substantial positives there. I believe that one 
of the things that we need to do better is drop down the walls 
between the agencies.
    Now, not the operational walls, but certainly the exchange 
of information, the analytical walls. And co-locating in one 
building, I think will serve to break down those analytical 
walls.
    Now, there is some concern about having a portion, if not 
all, of the counterterrorism division away from my office where 
I can get briefed twice a day. That is of concern to me. But in 
this day of video conferencing and the like, and I would expect 
to be out there a couple days a week at least, I think we can 
overcome that.
    And the benefits of breaking down those walls between 
foreign intelligence relating to terrorism and domestic 
intelligence relating to terrorism is important.
    The last point I will make is that what we have not done 
well in the past, but what we are doing far better is putting 
up our own intelligence capacity. And one of the 
recommendations from NAPA, I think, is we ought to maintain our 
own intelligence analytical capacity in international 
terrorism. And I absolutely agree with that because you need 
the competition, you need the different views, and I intend to 
keep that.
    But by the same token, there ought to be an opening up and 
an exchanging of the information so that the analysts, whether 
it be in the FBI or TTIC or CIA, is working off the same set of 
facts although they may reach different conclusions.
    Mr. Wolf. Well, I will end with this and recognize Mr. 
Serrano.
    I think, I thought it was a wonderful idea. And I went 
there when they announced it, thinking it would be a totally, 
completely independent. Now I sense it is being more an arm of 
the CIA, and I think that is a potential problem.
    Secondly, I think the location is a potential problem.
    Thirdly, I think the Administration has to submit 
legislation to formalize TTIC. I sent a letter to Attorney 
General Ashcroft, and I think I sent you a copy. Somebody has 
got to say this is the way it is. The fact that there has been 
nothing more said leads me to believe people are still thinking 
``What are we going to do? Are we going to do an MI-5? Are we 
going to do this?'' Kind of waiting.
    This is a good system. The TTIC makes sense. Establish it. 
Put it in the law. Let it be that way. Let it be truly that way 
and let it be the way that it says it is now, but nobody is 
making a conclusion.
    And I think you understand what I am saying. And by leaving 
it in limbo, I think you really create a lot of problems.
    Mr. Serrano.
    Mr. Serrano. Thank you, Mr. Chairman.

      BALANCING CIVIL RIGHTS, CIVIL LIBERTIES, AND LAW ENFORCEMENT

    Director Mueller, when I was growing up in political 
terms--it is an ongoing process with me--I always saw the 
Justice Department as that one place where people that had very 
little power in this society could come for help. Everything 
from Voting Rights Act enforcement to any attack on 
individuals. In my community, especially in the Hispanic and 
the African-American community, you came to the Justice 
Department.
    I always saw the FBI as a great agency that you had to be 
afraid of at times because it might overuse its powers. We have 
been through that before. Later I was shocked to find out that 
the FBI was part of the Justice Department, only then to 
realize that the FBI was involved in prosecuting federal 
criminals. And that made sense to me, because it was an 
investigative and law enforcement arm of the Justice 
Department.
    But now, since September 11, in my opinion and the opinion 
of many, the Justice Department has gotten involved in every 
aspect of law enforcement from its involvement with the INS to 
its involvement at the local level.
    And it seems to many people, most notably former INS 
Commissioner Ziglar, that the Justice Department, and therefore 
the FBI, have just gotten too involved in too many things which 
threaten, perhaps, the balance between civil rights, civil 
liberties and law enforcement.
    He has gone so far as to suggest that maybe the Justice 
Department should shed its law enforcement components and 
devote itself solely to the protection of civil liberties and 
the prosecution of federal criminals. Any thoughts?
    Mr. Mueller. I think I saw that. I have really not had an 
opportunity to give much thought to that possibility. I will 
tell you that we work so closely with prosecutors. And I have 
always thought, and perhaps maybe because I come from a 
background as being a prosecutor, that that was helpful and 
assured that the investigations progressed and were handled 
thoroughly and with the benefit of utilizing all the tools, 
many of which require the use of a grand jury or a use of a 
Title III wiretap.
    And so that association of the prosecutor with the 
investigator was exceptionally beneficial. And I tend to think 
that association is important.
    Other than those brief comments, I have not given much 
thought to what Mr. Ziglar said. It had not occurred to me 
before.

                   REPORT ON SEPTEMBER 11TH DETAINEES

    Mr. Serrano. Okay. I would add to your burden--and I am not 
being sarcastic because you do have a lot on your mind and in 
the Department--to perhaps give some thought to it, because you 
see, here is what is happening right now, and I want to say 
this in a way that does not make me sound like some sort of a 
hero here.
    There is a group of us saying we have to protect the 
homeland. We have to fight terrorism. We can't throw away the 
Constitution. And not many people are paying attention. Not too 
many talk show hosts, either on the left or on the right, are 
talking about it or inviting us on those shows to talk about 
it.
    I suspect that 20 years from now a lot of what we are 
discussing now may not be issues anymore. But the part of how 
we threw away the Constitution during this period may be the 
ongoing issue that we will be discussing. And so I harp on it 
all the time to keep reminding us that we have to pay some 
attention to it.
    With that in mind, could you give the Committee your 
assessment of the recent IG report on the treatment of 
September 11 detainees? I know that the court just ruled. And I 
do not know why the people who brought that case, they never 
spoke to me, asked for names. I have never asked for names. I 
just wanted to know how many, where they come from, where they 
were born and how, in general terms, are we concerned that they 
are a danger to us, of committing what kind of crime.
    I never asked anyone in any hearing for names. I think that 
is something that I do not need to know at this point. But that 
is what the court said.
    In view of all that, any thoughts on that, what I thought 
was a very dramatic IG report on the treatment of detainees?
    Mr. Mueller. Let me just start off by saying that I think 
it was a thorough report and a good report and pointed to some 
of the problems we had, and looking at it from the perspective 
of the FBI, during that period of time.
    I do think it has to be put into context somewhat, in that 
on the day of September 11, when those planes slammed into the 
World Trade Center and the Pentagon and the field in 
Pennsylvania, we did not know who was responsible for it. 
Within two weeks we find out that those who were responsible 
for it, the 19 hijackers who had been identified, were all 
dead. We did not know if there would be a second wave. We had 
concerns about putting the planes up that afternoon. But we had 
to do it with additional security checks.
    And consequently, the days, the weeks and the months after 
September 11, almost 7,000 of our 11,500 agents were working 24 
hours to try to identify associates of the hijackers. And once 
we identified them by name and place, we needed to interview 
them. And in the course of those interviews, we found that a 
number of those who had been associated with the hijackers were 
out of status with the INS. And therefore, under the 
appropriate statutes, rules and regulations of the time, could 
appropriately be detained.
    Now, in the process of the procedures to deport those 
individuals, the IG indicated that there were three areas where 
the FBI could have done a better job. One is establishing a 
definitive criteria for determining who was subject to further 
investigation by reason of being associated with the 
terrorists.
    Second, was inadequate manpower addressed to those 
particular investigations.
    And the third area of concern was the insufficient 
coordination between the FBI and then INS and the CIA, to get 
the information necessary to make a determination on these 
individuals.
    In part, I believe it is explainable by some of the 
circumstances at the time. Sixty percent of these individuals 
are in New York. And as you know, perhaps, better than anybody 
else, we lost our office in New York. It was close to the World 
Trade Center. It was not destroyed, but the communications were 
down. And our Joint Terrorism Task Force for months afterwards, 
had to operate out of a garage on the West Side.
    We had to bring up to speed individuals who had not had 
training before in handling counterterrorism.
    And so, we were operating under some deficiencies then. In 
terms of manpower and prioritization, the prioritization was 
determining whether or not the United States was going to be 
attacked again. Lower on the priority was addressing the leads 
that came from the individuals who were detained.
    And lastly, our coordination was not what it should be with 
those agencies.
    My hope would be that we have learned from this set of 
circumstances during that period of time, immediately after 
September 11. And having learned those lessons, my expectation 
is if we were ever put in that situation again, we would do a 
far better job in prioritizing those leads, developing the 
criteria applicable to that situation, and certainly in terms 
of our coordination with the other agencies, it has been 
enhanced and improved dramatically since September 11.

            CIVIL RIGHTS AND ETHICS TRAINING FOR FBI AGENTS

    Mr. Serrano. Let me ask you a question. When agents are 
being trained--and I am speaking still to this whole issue of 
the IG report and the issue of civil rights, and so on--I know 
that there are courses that are taught in ethics and corruption 
and behavior and so on. Is there new emphasis on civil 
liberties and civil rights? Or is it the standard, which in the 
past might have been good enough? Do you see a need to follow 
up on my concerns to add an extra couple of hours to that 
training to say, Guys and ladies, not everybody who looks a 
certain way is going to bomb somebody.
    Mr. Mueller. In certain areas, I do think it is important 
to change our training. I think we do a very good job on ethics 
training, on legal training, about what the Constitution means 
and how to operate within the Constitution.
    And we have included in our training issues relating, for 
instance, particularly in counterterrorism investigations 
relating to Muslims. And not only understanding the values, 
understanding how best to operate in a new environment. We have 
had leaders from the Arab-American community, and the Muslim-
American community come and teach at Quantico.
    In my mind, that is all a part of not just the ethics 
training, the Constitutional law training, but also operating 
within different cultures within our society.
    And so, we have added certain segments to it. I think we 
continually have to monitor to assure that there is a 
substantial component and perhaps add, in certain 
circumstances, hours, depending on the threat of the moment.

                              JOSE PADILLA

    Mr. Serrano. Mr. Chairman, I just have one quick, last 
question. Within what you are allowed to tell me in public, 
what role has the FBI played in advising Attorney General 
Ashcroft not to allow the alleged dirty bomber, Jose Padilla, 
to have counsel, to have charges presented against him, to have 
visitors? I do not know Mr. Padilla and I am not advocating 
about anything that he may be involved in. But he is an 
American citizen detained in Chicago. It is close to a year 
now.
    He is the dirty bomber suspect, and our understanding is he 
still has seen no visitors, no lawyer, no charges. And that may 
be okay for a lot of people, but he is an American citizen. And 
people keep asking themselves, How do you deal with that? What 
role has the FBI played in suggesting to the Justice Department 
that this is the way this gentleman should be treated?
    Mr. Mueller. Well, let me just say that I do believe that 
our role has been and should be to provide the facts to the 
policy-makers, whether it be prosecutors, the Administration or 
others.
    We play a role as an investigative agency, and it is 
important for us to understand that our role is to develop the 
facts in an objective manner and then present those facts to 
those who would make the decisions on whether or not, or how, 
one prosecutes a particular action.

                 AMERICAN CIVIL LIBERTIES UNION SPEECH

    Mr. Serrano. Okay, just in closing, let me on the other 
side of the ledger, congratulate you for having the vision to 
go speak before the ACLU. I do not know if you have been 
criticized for that in some circles, but it is certainly a 
different behavior for the FBI, and I think that in spite of 
all my concerns those are the signs of hope for the future. 
Thank you.
    Mr. Mueller. Thank you, sir.

                 SHIFTING AGENT AND STAFFING PRIORITIES

    Mr. Rogers. Thank you, Mr. Chairman. Mr. Director, it is 
good to see you again. And before anything else, let me add to 
those words that have been said already in thanking you for the 
tremendous work that you are doing and the dedication to 
America that you are again demonstrating. And we are proud of 
where you are. You are making a difference.
    Now, we all know and appreciate the need for 
counterterrorism and the shift of the work of the FBI heavily 
in that direction. I have a special interest in seeing that 
that takes place, of course, like everyone else.
    However, I am concerned that in shifting the FBI's major 
direction away from the traditional prosecution, investigation, 
the active work of the FBI in investigating crimes and leading 
to the prosecution of criminals, from that effort mainly away 
to counterterrorism, a whole different culture, that I am 
worried that we are leaving a big hole in America's fabric in 
doing that.
    And I am especially concerned about the drug enforcement 
end that FBI has been so instrumental in over the years. That 
is especially true in my state of Kentucky, in my district 
even, where we have a scourge of OxyContin prescription drug 
abuses and the like, which are very, very difficult, if not 
impossible, for local law enforcement entities to deal with.
    Because in many cases, of course, it stretches across state 
lines, and regional lines even.
    And your reorganization, your shifting about 40 percent to 
my calculation of the people who were FBI personnel who were 
formerly in the counter-drug operation away from that 
operation.
    I am afraid it is going to leave a big hole. Can you help 
me out with that?
    Mr. Mueller. Let me just make several observations. In 
determining how many people to shift to counterterrorism, I 
went to the SACs and said, What do you need to address? What do 
you perceive as the counterterrorism threats in your 
communities?
    This was last summer, before I requested the authorization 
to transfer these individuals. And they came back with numbers. 
There were three in Kentucky, And then I went back to the 
Special Agents in Charge and said, You prioritize what is most 
important for the Bureau to provide to your division and you 
tell me from which of the programs in your division you believe 
you should take those individuals.
    And then the figures came back. And it came back across the 
country that looking at the special agents in charge, they 
thought that that program where they could best bring those 
persons and put them on counterterrorism was drugs.
    Then I asked, Why is that? And there are several reasons 
that I come up with. One, in some areas, I think we are 
duplicating what the DEA is doing, particularly when it comes 
to the Colombian and Mexican cartels. And while I think we do a 
superb job and we have brought value to those investigations, 
we can still bring the value to those investigations under the 
Organized Crime Enforcement Task Force (OCDETF) concept or 
maybe the HIDTA concept, as part of task forces.
    And secondly, I come to the belief in talking with state 
and local law enforcement that increasingly state and local law 
enforcement is much more capable and better positioned to 
address stand-alone drug cases, whether they be ecstasy or 
methamphetamine or maybe OxyContin.
    Mr. Rogers. OxyContin.
    Mr. Mueller. The direction that I have given to the SACs is 
where you have something that crosses state borders, where you 
have something where we bring something special to the table, 
that is something that we ought to be involved in the task 
force concept.
    And while we have reduced the number of agents that are 
addressing drug cases, I do believe that the DEA has been able 
to fill in, and we are still there in those cases, the most 
important cases, participating in the task forces.
    That is not to say that down the road we should perhaps not 
have an additional numbers of agents reassigned back to 
narcotics or to drug cases, with additional manpower given to 
us by Congress, if state and local law enforcement, Congress 
and the Administration believes that you need the special 
organizational capability background that we bring to 
particular investigations.
    But for us, it had to be an establishment of priorities, 
and where those priorities are, you have to move the resources.
    Mr. Rogers. Well, I understand the priorities shifting. I 
understand that. I am just worried about the void that I think 
we are going to leave there. When you are transferring, my 
calculations, about 400 field agents out of drugs and to 
counterterrorism, and that is about 40 percent. In my state, we 
had five counter-narcotics field agents there; three of them 
moved to counterterrorism. Only two counter-narcotics agents 
for an entire state. That is a 60 percent reduction.
    And the DEA is the DEA. The DEA is not the FBI. Different 
cultures, different ways of approaching things. And we, 
frankly, need, in my judgment, the capabilities that only FBI 
has been able to bring to bear on this terrible problem that is 
infesting my state and the country.
    So I worry about that. I know it is on your mind as well.
    Now let me ask you this. We still need FBI for the old 
traditional things that FBI has done all of the years: 
prosecutions, investigations into criminal activities after the 
fact. And the preparation of the proof of those crimes to be 
presented in court to put bad people away who commit 
traditional crimes. Do we not?
    Mr. Mueller. Absolutely.

                      COUNTERTERRORISM OPERATIONS

    Mr. Rogers. And also, we need the counterterrorism 
operations obviously that you are now heavily into. Both of 
them vital to the nation, and both of which must be fed by the 
funds necessary to fuel those operations.
    And I wonder how difficult it is to try to transform an 
agency whose culture has always been a very refined way of 
criminal investigation after the fact. That is the culture. And 
now you are being asked to also find ways to prevent things 
from happening, i.e. terrorism.
    How can you convert this mindset of reactive investigation 
to prevention, which is an absolutely altogether different type 
of operation?
    Is there a division within the FBI between those two types 
of activities?
    Mr. Mueller. In some sense, I believe that that is a false 
dichotomy. I think our agents are among the best information 
gatherers that you will find in the world today, whether it be 
through interrogations, interviews, accumulation of information 
from databases or records and putting it together.
    I think they are superbly trained in that regard. But that 
is the gathering of information, now. That information can be 
gathered to put into a courtroom to prosecute somebody for a 
crime that has already occurred, or it can be gathered, as it 
often is, to be part of a larger matrix and make us more 
predictive in terms of where the next terrorist attack is going 
to come from first of all.
    Secondly, in order to prevent terrorist attacks, you have 
to identify those individuals who are either going to be 
engaged in those terrorist attacks or supportive of them. And 
when you find them, you have to do something with them.
    There are the criminal statutes out there relating to money 
laundering and relating to giving material support to 
terrorists. It is that information that we have gathered in 
order to prevent an attack. It is then utilized to disrupt or 
prevent those individuals either providing further support to 
terrorist groups or individuals or participating in those 
attacks.
    As I tried to articulate in response to the question on 
whether there needs to be a separate intelligence agency, we 
have the capability under one roof to utilize that information 
gathering capability for both the intelligence purpose as well 
as for putting in jail those persons who support terrorists or 
would commit terrorist acts.
    And I believe the agents in the Bureau have welcomed the 
opportunity to participate in what is clearly the largest 
challenge to the country right now.
    And it is not as if we have not done this in the past, in 
addressing the Mafia, because it was a combination of gathering 
intelligence and utilizing the criminal procedures, the 
criminal statutes, to dismantle the network of organized crime 
throughout the United States. So we have done it in the past, 
and this is another iteration of the same capabilities that we 
have displayed in the past or demonstrated in the past.

                         INFORMATION TECHNOLOGY

    Mr. Rogers. Well, I thank you for that analysis. Now, we 
have poured a lot of money into the information technology 
systems of the FBI over the years. This subcommittee over the 
years, since 1993, has provided $2 billion for technology 
upgrades out there, the automated case management system, the 
trilogy, the IAFAS, National Crime Infomation Center, Digital 
Storm, Colea, Aroband among others. And yet we have never 
really gotten, I do not think, the product that we thought we 
were ordering. Do you think we are getting there?
    Mr. Mueller. Now, let me just say that I think, and my 
initial thought was I would love to have a substantial amount 
of that $2 billion back, but I will tell you that I think if 
you list the things that have been accomplished with that, 
IAFIS for instance, I think works very well and is the model in 
the world for handling our fingerprints. The technology that we 
have used for the DNA initiatives and the databanks that we 
have put up, also information technology, is the envy of the 
rest of the world.
    What we have done with NCIC, we have to continue in that, 
but we have had substantial successes in the Information 
Technology (IT) area. We have not had the same degree of 
success in providing agents with the databases, the 
applications, the hardware and the software that they need to 
do the job. And I think we are well on the way to providing our 
agents that capability.
    As I am sure you are aware, we have put in more than 22,000 
new Pentium computers in our various offices in the United 
States since September 11. As of March 27 of this year, we have 
put into place the Local Area Networks (LAN) and Wide Area 
Networks (WAN) that are necessary to give us the bandwidth for 
communicating between our offices, whether it be video files or 
audio files and the like, which we did not have before. And so, 
we have the backbone in place.
    And let me just make one other point. We completed both of 
these undertakings on time.
    The last piece will start going in December of this year, 
and that is the software application which is known as the 
Virtual Case File, which includes the database structure that 
will, I think, revolutionize the way we do work as well, as the 
application that will enable the agent to have a digital Web-
based interface for the input of information into the database 
that will then allow that information to be shared horizontally 
and not only vertically, the way we have done it for the last 
90 years of our existence.

              COMMUNICATIONS BETWEEN INTELLIGENCE AGENCIES

    Mr. Rogers. The biggest challenge, I think, that we face in 
homeland security is creating a system of communication that 
links the intelligence agencies, all of them, together in one 
place, but also links that information center with the people 
who make things happen out there in the field: screeners at 
airports, local police, FBI agents, border patrol, port 
security people and the like. Do you feel like we are headed in 
the right direction in that respect?
    Mr. Mueller. I do feel that we are headed in the right 
direction. I think the TTIC is the next step in getting there. 
You do not have one big unified database, and I do not believe 
for security, and technical reasons, you can ever have that.
    But you have the analytical capability, within that center, 
of looking at the various databases and pulling pieces of 
information out that will help the analyst to come up with a 
product that is multisourced, which is what you want.
    You want that analyst to have the access to the information 
regardless of which agency has that information that may feed 
into the survey or the product that is being developed by that 
analyst.
    And I think we are on, we are getting there.
    I will tell you that from my perspective, our first step is 
to make us a player in the intelligence community by redoing 
our infrastructure to make it accessible, with the appropriate 
security precautions, to those who seek the information from 
our databases so that they can put together in a unified center 
such as TTIC that information that is necessary to get the full 
picture.
    But we had put in place our infrastructure in order to lay 
a foundation for moving ahead as the Intelligences Community or 
the law enforcement community.
    And I think we are in the process of doing that, and my 
hope is that by December we will be very far along that path.

                  TERRORIST THREAT INTEGRATION CENTER

    Mr. Rogers. We are counting on that.
    In closing, Mr. Chairman, back to your points about TTIC. A 
lot of us had a great deal of concern that that center was co-
located with CIA, therefore out of the reach, really, of proper 
oversight, in my opinion, by the Congress, and because it was 
not located, frankly, at Homeland Security, which is the 
purpose of having a TTIC, where we could have a chance to 
inspect and inquire and ask, even in a secure way, and exercise 
some oversight over that organization.
    I have my real doubts, and you are going to prove me wrong, 
that the occupants of TTIC will really share information that 
is gathered by the respective organizations.
    I hope, I pray I am wrong. And I know you have assured us 
that you think it will work. We are putting a lot on that 
promise, more than perhaps even we know today.
    So I hope that you can assure us without any doubt that 
TTIC will be a working operation, that it will share from all 
14 agencies that are part of the system, and that the 
information that we get there will be useful to the people out 
here that we are asking to prevent things from happening in the 
field.
    That is the only place that they can get this kind of 
information. So we are betting everything on a working TTIC. 
And I hope I am not hearing tick, tick, tick. I hope that it is 
the real thing.
    Mr. Mueller. Well, if I may just make the observation, I 
believe TTIC is one piece, the analytical piece that is very 
necessary to pull the information together.
    But since September 11, the interchange of information 
between the operators, internationally for the CIA in the 
intelligence arena, and the FBI domestically, has, improved 
dramatically.
    Where we have had detentions overseas, where there are 
other pieces of information that relate to the United States, 
we have been working with our counterparts in the international 
intelligence arena as never before, and moving swiftly in real-
time to coordinate our investigations.
    And that is always as important as the analytical product 
that comes from TTIC. And so I think TTIC is a very important 
part of the puzzle, it is a very substantial advance, and as we 
individually in our agencies improve our technology we will 
become even more proficient at doing the analysis that all of 
us need to help us direct our operations.
    But in the meantime we cannot lose sight of the fact that 
we have to be exceptionally well integrated both within the 
United States as well as outside the United States in foreign 
countries and make certain that information that drives our 
operations is handed over not only between our agencies in the 
United States but also between the United States and our 
foreign counterparts in a real-time way to prevent attacks.
    And that is going to be an ongoing challenge that I think 
we have been somewhat successful at in the last year, but is a 
continuous challenge.
    Mr. Rogers. I will just finish with a statement, a 
sentence. Being an old prosecutor, young former prosecutor, as 
am I, You remember those days when it's chagrin to you that 
police agencies would not cooperate with each other. And there 
is just a natural, whatever it is, human instinct to preserve 
your information and not share it with anyone else. And it was 
a frustrating thing in my prosecuting days, surely yours. Could 
we be seeing some of that here?
    FBI, God love you, at times, like to protect your 
information. God knows CIA does. And many of the other 
investigative agencies have a possessive ownership rights to 
information that they do not want to give up and share.
    And so, therefore I am very pessimistic. I am questioning 
whether or not we will be able to shed that historic cultural 
problem with not wanting to share information with each other, 
that TTIC hopefully will try to do away with. I am not asking 
necessarily for an answer. I am just saying that we are 
fighting nature here in making this happen.
    I think you have seen us sea change since September 11, but 
as there is not an agent in the FBI, in the support cadre in 
the FBI, I do not think there's an officer in the CIA that 
wants another September 11. And I think, whether it be in the 
federal agencies or state and local law enforcement agencies, 
we understand that the exchange of information and drawing the 
bigger picture is absolutely essential to preventing the next 
terrorist attack.
    And so, I think when you are dealing in a world of 
developing a case for prosecution, that is all well and good. 
Somebody is going to get it and one person gets it, then so be 
it. There's the press conference and the prosecution and you 
have got a successful case.
    In the wake of September 11, all of us recognized we cannot 
afford another September 11. And that requires a sea change in 
terms of how we look at information.
    Mr. Rogers. Thank you, and thank you for these men and 
women for what they are doing for the country.
    Mr. Mueller. Thank you, sir.

                          DRUGS AND TERRORISM

    Mr. Wolf. I am going to recognize Mr. Mueller, to just to 
follow up on two points.
    One, I think there really is no congressional oversight at 
TTIC. I think you just have to be aware of that because of the 
way it is set up. So I think that's something that's going to 
have to be dealt with.
    Secondly, on the drug issue, there are a lot of things the 
FBI can get out of. But 14 of 24 terrorist groups around the 
world are all being financed by drugs. Hamas, Hezbollah, the 
Taliban, the poppies are back flowing in Afghanistan.
    And drugs are a form of terrorism. If you are a mom or dad 
that has your child hooked on a drug, that's a form of 
terrorism. And as the FBI draws down on drug investigations, 
quite frankly, I think we are going to see a major problem in 
the country. And I think you just can't take 400 people out of 
drug investigations and not expect it to have an impact.
    And I saw Mr. Thornburgh's comments. The Congress has been 
reluctant to give the FBI more responsibility since this time. 
But this has been a long-term responsibility. And Mr. Mollohan.

                       HOMELAND SECURITY AND TTIC

    Mr. Mollohan. Thank you, Mr. Chairman. Mr. Director, 
welcome to the hearing. We already have all of those problems, 
Mr. Chairman. And it would be a shame for the FBI to lose its 
attention fighting drugs, fighting that problem. And it is one 
that I think you find almost unanimity in the Congress that we 
hope you do not abandon.
    Following up on the chairman and Chairman Rogers and the 
ranking comments and concerns, about intelligence sharing. We 
talked about this a little bit last year, and I would like to 
follow up.
    Going back to basic principles for a moment, the Homeland 
Security Act that we passed, one of its core features was the 
establishing of this director for information analysis and 
infrastructure protection, the linking between those two 
thoughts. And I think it was the Congress's intent clearly to 
establish an entity that had an independent focus on homeland 
security as it looked at information from various sources, raw 
information, analyzed information, whatever information its 
analysts could appreciate for the purpose of making these 
determinations a threat to homeland security.
    So that's the intent of the law, clearly: establishes the 
director, undersecretary for information analysis and 
information protection and assistant secretary for information 
analysis.
    Now, the President in his State of the Union, most 
important speech perhaps he makes every year, January 20, 2003, 
called for the establishment of TTIC, that's the Terrorist 
Threat Integration Center.
    And gave the responsibility to the Director of Central 
Intelligence (DCI) to direct it.
    Do you see any incongruity or any conflict in the 
establishment of the intelligence evaluation entities in the 
statute and the president's creation, under the director of 
Central Intelligence, of the TTIC, which assumes a lot of that 
responsibility?
    Mr. Mueller. I see them working hand in glove in the sense 
that the TTIC takes the operational intelligence that you get 
from the agency overseas and what we pick up from our Joint 
Terrorism Task Forces in the course of our investigations 
within the United States and puts that together to analyze the 
threat against the United States.
    But Homeland Security's role is to take that threat 
information--it can have access to anything underlying it. If 
they want the sources, they want to drill down into it to 
better understand the threat, so be it. There is no holding 
back. But the purpose should be, if you have got threats 
against a sector in the United States, how do you handle it? 
How do you evaluate that threat given the particular sector 
that may be hit? Or against that particular city?
    So it is marrying up the information that comes from the 
operations at the FBI, CIA and certain elements of Homeland 
Security relating to threats to the vulnerabilities of 
particular sectors.
    Mr. Mollohan. Right. And of course, that is what TTIC is 
directed by the president to do. But do you not see that role 
that he has given TTIC under the direction of the director of 
Central Intelligence taking from Homeland Security that very 
role?
    And yes, making the Homeland Security personnel a part of 
it, because they are involved in TTIC, but giving the 
responsibility for taking that intelligence from whatever 
source, and as you just said, from foreign sources, and making 
that determination themselves?
    In other words, the responsibilities the statute gave seems 
to me to be the responsibility that TTIC has assumed, not under 
the Homeland Security Department, but under TTIC, which is 
given responsibility for direction by the DCI.
    Mr. Mueller. I guess I would have to say that I have not 
parsed the wording of the statute, nor do I understand----

              FOCUS ON AGENCIES INTELLIGENCE CAPABILITIES

    Mr. Mollohan. I mean, you know, honestly, let me say, I am 
not parsing, I mean, I am trying to look at a big picture here. 
I mean, it is one of the primary focuses is to get this 
intelligence capability into an agency that has a homeland 
security focus, so that it can take the intelligence from a lot 
of different areas, analyze it and make the threat 
determinations and then disseminate this information.
    I think bottom line, it maintains within the traditional 
intelligence gathering and analysis agencies the primary 
responsibility for analysis, even for the homeland security 
focus and homeland security determination.
    I guess it is more a comment than any more of a question 
and an expression of concern, which I think Chairman Rogers 
expressed that we will hope it clicks and does not tick because 
it is really important. And I think it is a very clear 
intention of Congress that the Homeland Security Department 
have that responsibility. You know there is a couple of 
concerns it raises.
    First of all, that clear congressional intent with the 
establishment of an independent analysis capability with a 
homeland security focus seems to me to be undermined by 
switching it over.
    But also there is concern about the DCI's role. 
Traditionally and statutorily, CIA is supposed to be out of law 
enforcement for internal security functions. And it seems to me 
that that puts them right at the center of it. Can you comment 
on that and why it does not?
    Mr. Mueller. Yes. It goes back to the distinction between 
the analytical product and the operations. And I would be 
concerned, and I think others would be concerned, if you broke 
down that portion of the wall that separated the operations of 
the FBI within the United States and the operations of the CIA, 
which have traditionally been outside the United States.
    What we are talking about is an analytical product that 
takes the information developed by the operational arms of both 
those agencies and attempts to integrate that information and 
provide a product that is used by Homeland Security and 
augmented by Homeland Security and assisted and perhaps built 
upon by Homeland Security to better protect the homeland.

                      THREAT DETERMINATION PROCESS

    Mr. Mollohan. Well, under this arrangement, who has the 
responsibility, ultimately, for making these determinations, 
these threat determinations, and decisions about disseminating 
that information and to whom?
    Mr. Mueller. Well, if one is talking about the 
determination of threat level, Tom Ridge, has that 
responsibility. I believe it is under the statute, with 
consultation with members of the Cabinet.
    And so, the information is fed both to Homeland Security 
and within Homeland Security, the information that comes from 
the FBI, from the CIA, and----
    Mr. Mollohan. Through TTIC?
    Mr. Mueller. It may or it may not. I mean the product can 
come from TTIC, yes. But TTIC has been up just since March.
    Mr. Mollohan. But what is the intention of it?
    Mr. Mueller. The intention is that tendencies would 
integrate the information from the various agencies. And 
because Homeland Security is a part of TTIC, the information 
would flow from TTIC to Homeland Security. But that would not 
prevent, and I do not think the statute anticipated, the 
Secretary of Homeland Security from reaching out and saying, 
FBI, you have got an operation here in Phoenix. We need 
information underlying that operation so that we can better 
make a determination as to what the threat to the United States 
is.
    Likewise, it does not prevent the Secretary from going to 
the CIA and saying, I need underlying information relating to 
this particular subject.
    Mr. Mollohan. I am sure you can see why there is concern 
here, legitimate concern. I mean, you are transferring your 
anti-terrorism responsibilities to the DCI through TTIC. TTIC 
and the DCI having this kind of a role in relating information 
to state and local governments and becoming this involved with 
domestic policy.
    Mr. Mueller. I would disagree with your characterization 
that we are turning over our counter-terrorism responsibilities 
to either TTIC or the Director of Central Intelligence. That is 
not the case.
    We are participating in TTIC. Our analysts are 
participating in TTIC. The Deputy is one of our people. We are 
working in the inner agency. In my mind, it is somewhat like 
what the Joint Chiefs of Staff of the military have had for a 
period of time, the bringing together of the information in a 
particular place with the participation of each of the 
agencies. So you get that integration of information that we 
perhaps have not had in the past.
    For analysis and to make the determinations as to 
ultimately by the Department of Homeland Security, how do we 
brace up our vulnerabilities within the United States?
    When it comes to operations, I have transferred a number of 
agents to the counterterrorism operation, we are maintaining 
our counterterrorism role on the operations side. And we will 
continue to build up our intelligence analytical capability 
within the bureau but also participate in TTIC.
    Mr. Mollohan. Thank you, Mr. Director.
    Mr. Wolf. Mr. Cramer.

                    MODERNIZATION OF FBI TECHNOLOGY

    Mr. Cramer. Thank you, Mr. Chairman.
    Mr. Director, welcome back to the subcommittee. I regret 
that I was not here when you first offered your testimony. And 
I may direct you to some issues that you have already gone 
over.
    I am very interested in the modernization of FBI 
technology. And specifically, as you have now gained more 
experience after 9/11 with what the joint terrorism task forces 
have had to come to grips with, I need some spoon-feed here. 
Reading through the outline of your statement, Trilogy, other 
information technology initiatives. You seem to emphasize that 
you are making progress with your technology issues.
    Could you tell me what is your basic technology for 
allowing your agents to communicate on the joint terrorism task 
forces?
    Mr. Mueller. Well, we have, currently, the ACS system, the 
Automated Case System. So, in terms of the database structure 
and the input and the accumulation of information, it is 
currently ACS. That will go to Virtual Case File in December of 
this year.
    Mr. Cramer. And my point, Mr. Director, at the risk of 
interrupting you, is not to get you to describe the technology 
necessarily. We need to be careful about that. I just want to 
make sure that we are giving you the money you need, the tools 
that you need, and that you are analyzing what your needs are, 
where you need to go with regard to your ability to communicate 
differently today than 2 or 3 years ago.
    Mr. Mueller. Well, in terms of communication, you can look 
at e-mail, for instance, upgrading from an old group--I 
probably should not mention the particular names--but to a more 
modern e-mail system. Putting in place, as I did mention 
before, LANS, WANS with the appropriate bandwith, to allow the 
communication of audio files, video files, and the like, 
snippets of conversation from a wire interception, all of which 
we could not do previously. We have upgraded that backbone so 
that it augments our communications capabilities.
    The types of computers, upgrading 22,000 Pentiums, gives us 
a capability we did not have before. And ultimately, with the 
new hardware, with the LANS, we have the backbone of the 
system. When we put in the new database structure and the new 
application, Virtual Case File, I think we will have made 
substantial strides in bringing us into the 21st century. We 
have a ways to go, though, and I will be back to you.
    One of the things we have tried to do in putting in the new 
technology is to recognize that we are going to have to upgrade 
that technology periodically. And we wanted to put in the 
technology that would provide a foundation for readily 
upgrading on a regular basis.
    And so, you cannot look, in my mind, at technology as a 
one-shot infusion of funds to accomplish that. It has to be a 
long-term project. It has to be a long-term architecture. There 
has to be a continuous infusion of funds so that you keep the 
technology up to date, and we do not lag behind as we have in 
the past.

                    INFORMATION TECHNOLOGY OVERSIGHT

    Mr. Cramer. And who is overseeing that for you?
    Mr. Mueller. Well, right now it is Wilson Lowery, who is 
the Executive Assistant Director for Administration, who I 
think you probably know spent a substantial number of years at 
IBM participating in their re-engineering there. And we are 
currently looking for a Chief Information Officer (CIO) who 
will have the principal responsibility of finalizing and 
putting in place the architecture and assuring that we have the 
type of upgrades that we need across the board.
    I will tell you that we tend to separate in our mind pieces 
of technology like IAFIS, the fingerprint databases, and the 
structure, NCIC and TRILOGY.
    But it all has to be a parcel part of the architecture that 
is not only useful for the FBI but useful for state and local 
law enforcement around the country, as well as our counterparts 
overseas.
    And as we put into place pieces of the information 
technology that are so important to us to do our job, we have 
to make certain that we are looking 5 to 10 years down the road 
as to how it all can be integrated.
    Mr. Cramer. This is very, very complicated, and it is very 
sensitive, because the times that I have visited with a few 
joint terrorism task forces, and you look at who all is at the 
table there, and you think of the information that could flow, 
you wonder how are they banking this information, how are they 
making the information accessible to only those who need the 
information, but at the same time making their ability to 
cross-communicate easier? So I encourage you to stay on top of 
this, as I know you are.
    Mr. Mueller. We have, and I will tell you, that the other 
side of the coin is security. Because as you wish to 
disseminate information, it has to be done in a secure 
environment. With a profusion of laptops, many agents and 
officers have their own laptops, there can be a weeping off of 
information in devices that undercut the security.
    So at the same time that we build up our information 
technology, we have to assure that we do it in a secure 
environment, and as much as we collect information and broadly 
disseminate it, we have to make certain that it is disseminated 
to persons that have the appropriate security clearances, and 
it stops there.
    And with everybody having some sort of technological device 
now, it becomes harder to do, and we have to watch that at the 
same time.

                 ONE GOVERNMENT-WIDE SECURITY CLEARANCE

    Mr. Cramer. Speaking of security clearances, another issue 
that I want to raise is the amount of time it takes to obtain 
those security clearances, which is understandable in a certain 
way, but with regard to the efficient operation of the joint 
terrorism task forces, how would you react to the suggestion 
that there should be one government-wide clearance level, and 
having clearances processed by one neutral entity, as a way to 
improve the system?
    Mr. Mueller. I think it is an ideal that could not be 
realized. I do believe that there should be different levels of 
classification. I mean, there are some issues that should be 
need to know, there are other issues that should be addressed 
with persons who have a certain level of security, top secret 
or something like that.
    I think that is valuable. I do think that one ought to try 
to push the issues and the information down to the lowest 
common denominator security, but I do think there ought to be 
levels.
    I question whether you would not be establishing a 
substantially large bureaucracy if you asked that bureaucracy 
to do the security clearances for Department of Defense DOD, 
the CIA, the Department of State, the FBI, and all of the 
agencies that have their own different security needs.
    I will tell you that one of the concerns of state and local 
police departments at the outset, particularly as you are 
seeing in the Joint Terrorism Task Forces, was the delay and 
the time to get the security clearances.
    It is my belief that state and local law enforcement 
agencies on the JTTF's should have a top secret clearance, and 
should be the equal of FBI or other federal agents sitting on 
that task force, and should not be precluded from seeing any 
piece of information that the FBI agents sitting next to you 
sees. And that takes a fair amount of time.
    With regard to chiefs and the others in the hierarchy, a 
secret level of classification, which takes something like 90 
days, is appropriate, and we have gone to that system. I think 
the state and local law enforcement agencies understand the 
division and the benefits of it.
    We have tried to educate state and local law enforcement 
agencies as to the security procedures, and we have worked that 
out. I know last week I spoke before the major city chiefs, and 
for the first time, I think, this was not an issue on their 
agenda.
    Mr. Cramer. Then what would be your solution to speeding up 
the time that it takes to get the security clearances done?
    Mr. Mueller. It would be additional manpower doing the 
background checks that would speed up that process. And we are 
looking for ways to do that, with contractors, former FBI 
agents, other former federal agents.
    And we have dramatically improved our ability to bring 
people on board by looking at various areas of the process and 
finding efficient ways to do it. I think we have brought down 
the time it takes to get somebody on board, an agent for 
instance, to eight months. And we are hopeful.
    Yes, we will be down to about 90 days by the end of July, I 
have been told.
    Mr. Cramer. Very good. Thank you, Mr. Director.

                       REORGANIZATION OF THE FBI

    Mr. Wolf. Thank you, Mr. Cramer.
    We are going to have a vote shortly, I think. And then that 
is when we will recess and come up with the next panel.
    So let me go to some fast questions. Maybe you can keep 
your answers relatively short, and we can follow up with more 
elaboration.
    But you recently submitted a reorganization that includes 
the elimination of the Executive Assistant Director for 
Criminal Investigations. At least half of your agent contingent 
is devoted to traditional crime. Why would you want to abolish 
that? Wouldn't you think that the EAD for Criminal 
Investigation is more important than an EAD for Administration 
or law enforcement services, or certainly at the same level? 
Why would you want to eliminate that?
    Mr. Mueller. I do not see it as eliminating it. I saw it as 
promotion of Bruce Gebhardt to my Deputy Director position. I, 
in fact, thought of it as being an elevation, because he would 
still handle criminal and cyber, but we would split off 
counterintelligence and counterterrorism.
    And originally when I was here last spring and put into 
place the original reorganization where I had four EADs, I was 
thinking I did not need a Deputy. I found that I really did 
need a Deputy, and Bruce Gebhardt filled the bill, and he has 
done a terrific job. And it was an elevation of him to the 
Deputy's position.
    Now, given what you raised today, I probably would go back 
and rethink that. I will tell you I had thought of it also as 
an EAD position that could be filled without necessarily a 
designation. And that was my fault, not the staff's fault or 
anybody else. And so when I saw the need to elevate the 
intelligence function within the Bureau, I saw that empty EAD 
slot as an opportunity to put in place a third-level manager 
who would have the responsibility and the authority to assure 
that we addressed the intelligence function in the Bureau.
    So I looked at it as an elevation of those programs to the 
Deputy slot as opposed to a devaluation of them.
    Mr. Wolf. But the deputy fills in when you are not there.
    Mr. Mueller. Yes.
    Mr. Wolf. And every day you are at the White House, every 
morning meeting with the President and Mr. Kinney, correct?
    Mr. Mueller. I am, yes. And he does and----

       GRADUATE SCHOOL OPPORTUNITIES FOR FBI AGENTS AND ANALYSTS

    Mr. Wolf. Yes. I, you know, I think it is a diminishing of 
the criminal.
    And on the College of Analytical Studies, we had asked 
you--actually the Committee had given you authority to send 
your people to graduate school, similar to what the Army, Navy, 
Air Force provide their people. How many are going to the 
schools now? Do you have any that are working toward master's 
degrees?
    Mr. Mueller. Yes, I believe we do. Let me just check on the 
figures.
    Mr. Wolf. How many do you have, 10, 20, 30?
    Mr. Mueller. We have no one yet. We are embarking on that 
program. My understanding is the undertaking going to begin 
next week.
    Mr. Wolf. Well, I think we have given you a good bit of 
money for that.
    Mr. Mueller. $300,000, is my understanding.
    Mr. Wolf. And we are prepared to give more. Yes, we gave 
you more than $300,000.
    Mr. Mueller. $10 million.
    Mr. Wolf. $10 million.
    Mr. Mueller. Yes. And there is a breakdown in the appendix 
to, I believe, the GAO report that shows you how we are 
allocating those funds.

       CREATION OF EXECUTIVE ASSISTANT DIRECTOR FOR INTELLIGENCE

    Mr. Wolf. Well, I think you ought to announce it to the 
Bureau, have agents who want to come in to get master's degree 
in languages and forensics, or whatever the case may be, or 
whatever you need.
    The Navy does it. The Army does it. Department of Energy 
does it. And I think the sooner you have it, I would hope you 
could have people involved in the fall semester getting their 
master's degree and doing that.
    You announced the creation of an EAD for intelligence 
several months ago. How will this new structure ensure that the 
FBI establishes and enforces appropriate safeguards? The 
Hanssen case, the JJ Smith case in Los Angeles, how will this 
help make sure that never happens again?
    Mr. Mueller. Well, Maureen Baginski, who I brought in to be 
the EAD of Intelligence, her mandate is to utilize her 
experience in assuring that we have the tasking, the 
organizational structure, and the career path for intelligence 
analysts and officers within the FBI that we have not had 
successfully in the past.
    Ken Senser, who is the head of the Security Division, has 
the responsibility of assuring the security throughout all of 
our programs, including the Intelligence program.
    And we do that in a number of ways. As I am sure you are 
aware, we have enhanced the polygraph program. We are 
instituting a more extensive program of financial disclosure 
statements. As we develop our information technology, it is 
very important that we put in the capabilities of ensuring the 
security of that information technology, as well as the audit 
capabilities that were not in place early on with the Bureau. 
And so it is his responsibility, and I believe he has done a 
good job.
    Mr. Wolf. Do you think that would have caught the Hanssen 
case and the JJ Smith case?
    Mr. Mueller. There are a number of things that we had to do 
better to handle both of those. Yes, putting in the security, 
the audit trails on the computers is one of them. But there are 
a number of procedures that either were not in place on the 
counterintelligence side of the house that were on the criminal 
side of the house that we needed to put into place. And there 
was not necessarily the managerial oversight in certain 
instances in the past that we should have had to assure that 
that did not happen.

              CHINESE SPY POLICY AND DETAILEES TO THE CIA

    Mr. Wolf. Have we been seriously hurt with, I am not going 
to get into facts with regard to the case out in California, 
with the woman, the Chinese national?
    Mr. Mueller. Let me just say, it is somewhat premature. We 
are looking at that in depth. But I am not certain that I would 
think it appropriate in open session to discuss the results. I 
would be happy to discuss that with you outside open session.
    Mr. Wolf. I would like to do that.
    The Chinese have a very extensive spying policy against us. 
That is a fact.
    Mr. Mueller. It is a challenge and it is a priority for us.
    Mr. Wolf. And I think somehow you have to let companies, 
high-tech companies in the United States know what a target 
they are with regard to the Chinese government.
    You have 25 CIA officers detailed to the Bureau to assist 
in intelligence. How long are they going to be detailed to the 
Bureau?
    Mr. Mueller. Through the end of July.
    Mr. Wolf. And what happens in July?
    Mr. Mueller. They will be going back. Their detail ends 
and----
    Mr. Wolf. So they are all going?
    Mr. Mueller. They are going.
    Mr. Wolf. Do you need them longer than that?
    Mr. Mueller. We are looking at ways of addressing their 
loss. I will say they have made a substantial contribution over 
the last year. We have appreciated the work they have done. I 
will tell you that all of us are looking to hire and train 
personnel.
    Mr. Wolf. Should you keep a few of them or offer them jobs?
    Mr. Mueller. We are in the process of discussing how we 
cover for them.

                  TTIC AND 2003 WAR-TIME SUPPLEMENTAL

    Mr. Wolf. The FBI received funding in 2002, 2003 to fund 
TTIC, but the FBI's 2004 budget request does not contain any 
increase for TTIC. What are your 2004 costs? And does the 
Administration intend to submit a budget amendment to pay for 
the 2004 costs?
    Mr. Mueller. We are in discussions on that issue now.
    Mr. Wolf. What committee do you think has oversight over 
TTIC?
    Mr. Mueller. I must confess the ignorance in the decision 
of how committees determine oversight over agencies. And so I 
would be reluctant to speculate as to who has oversight over 
TTIC. I would say this Committee has oversight over the 
appropriations when it comes to the Department of Justice and 
the FBI.
    And to the extent that this Committee has questions about 
the FBI's role in TTIC, quite appropriately, it should be 
brought to our attention.
    The overall entity, I cannot speak to whether or not 
ultimately it should be on the Intelligence Committee or on the 
Judiciary.
    Mr. Wolf. But you never have public hearings?
    Mr. Mueller. It does have public hearings, since I have 
attended a number of them.
    Mr. Wolf. Only when you are asked to testify, but overall, 
for substantive matters, it is very seldom and appropriately 
so, it does not have public hearings.
    I think that it is helpful to have the public involved.
    The Congress passed the Iraq War Supplemental in April. 
When will the Administration submit a spending plan for the 
$367 million provided to the FBI?
    Mr. Mueller. I believe it is to be submitted shortly. Hold 
on just a second.
    Any day now.

                 FIELD OFFICE STRUCTURE REORGANIZATION

    Mr. Wolf. Is there going to be any reorganization in the 
field with regard to field presence? I do not know if these are 
inadequate, or there are 56 offices, field offices. Is there 
anybody looking at that? I am not saying there is a problem?
    Mr. Mueller. No.
    Mr. Wolf. I am just wondering if there will be----
    Mr. Mueller. No, there has been talk about how we address 
resident agencies, whether our field structure should remain 
the same over a period of time. My own belief is that it has to 
be looked at. We are looking at it.
    Populations have moved. Crime problems have either migrated 
or changed. What was appropriate for a field structure 20 years 
ago probably is not appropriate now. And there are a number of 
factors that ought to go into that calculation.
    Population movement, what are our priorities and to what 
extent are they in one location of the country or not we are 
looking at that now, looking at a number of factors that go 
into it.
    Mr. Wolf. When were the 56 established?
    Mr. Mueller. I think the number----
    Mr. Wolf. What year?
    Mr. Mueller. Over a period of years. But there have been 
some that have been consolidated over time. And there have been 
some that have been broken up over time.
    But in terms of a reallocation of Funded Staffing Levels 
(FSL) between the field offices, I do not think there has been 
a substantial one for a long period of time. Instead, there is 
an accretion of personnel at offices. And it is something that 
we are looking at, and I think have to look at and bite the 
bullet on down the road in terms of where we put our resources.
    And I am looking at the ways that we allocated the 
resources in the past, and I am not satisfied that they are the 
best ways of allocating the resources for the future.

                         TRILOGY REPROGRAMMING

    Mr. Wolf. The committee is looking into the process of 
reviewing your $138 million reprogramming with regard to 
Trilogy. This reprogramming request will bring the total cost 
of Trilogy to $596 million, a 60 percent increase over the 
original estimate. Will this be the final payment, besides the 
yearly maintenance cost? Is this it?
    Mr. Mueller. It will put into place that which we need now. 
And I say, it is important for us to have that to produce what 
we are looking at for December.
    There are a number of applications we have within the 
Bureau that are outmoded. Look at IAFIS, the fingerprint 
capabilities. We are looking at modernizing the technology. I 
do not want to be left behind where other countries are going 
ahead and having a greater fingerprint capability than we do.
    And consequently, I think, I want to be on the cutting edge 
of each of these technologies. I think we as law enforcement in 
the United States, should be on the cutting edge, whether it be 
IAFIS, in the fingerprints, whether it should be in the DNA 
profiling and the databases accompanying that or in NCIC and 
enhancing our communications, all of which is technology.
    And in the future, I think I will be back to you saying, 
Look, for the betterment of law enforcement of the United 
States, we have to enhance our technology.

                  ESTABLISHMENT OF FBI ADVISORY BOARD

    Mr. Wolf. The last question, so I do not keep Mr. 
Thornburgh and Mr. Walker. Then I will recognize Mr. Serrano. 
Our 2003 appropriations gave you $5 million to establish an 
advisory board similar to DARPA. Have you selected a chair and 
members and developed the list of topics?
    Mr. Mueller. I am looking at a number of individuals for 
the chair now. And I expect to make a selection within the next 
couple of weeks.
    Mr. Wolf. And members will be also selected?
    Mr. Mueller. I want the input from the chair in terms of 
the selection of members.
    Mr. Wolf. When do you think that will be finished?
    Mr. Mueller. September at the latest.
    Mr. Wolf. Labor Day?
    Mr. Mueller. Labor Day.
    Mr. Wolf. Okay. Mr. Serrano.
    The rest will be submitted for the record.
    Mr. Mueller. Thank you, sir.
    Mr. Serrano. Can I volunteer to chair that committee? 
[Laughter.]
    The background with----
    Mr. Mueller. If you have got a resume with technology, yes, 
absolutely.
    Mr. Serrano. The background check might take us back too 
far. [Laughter.]

                              PATRIOT ACT

    I just have one set of questions for you on the PATRIOT 
Act. Sooner or later we are going to look at whether we need to 
do more or do less or what.
    Have you analyzed the powers that were given out in the 
PATRIOT Act? And what, if any, changes you think need to be 
made? In other words, would you think that there would be a 
PATRIOT Act II coming? And what is your evaluation, if any? 
Have you gone that far?
    Mr. Mueller. Well, as it applies, and I am just going to 
speak as it applies to the FBI, the PATRIOT Act has been 
indispensable in terms of breaking down the walls and enabling 
us to share information we could not have done prior to 
September 11.
    And to the extent that we have had any success since 
September 11 in terms of sharing information to disrupt attacks 
in the United States or overseas, in part that is attributable 
to what the PATRIOT Act did.
    In terms of the other aspects and the enhanced sentences 
and the like, that is much more difficult to quantify. But its 
addressing the issue of non-sharing of information on the 
PATRIOT Act was very important advance for us.
    I understand that there are discussions between the 
Department and the Hill with a possibility of certain 
provisions in a new act. I do not know what they would call it, 
but additional legislation. Some of that may well relate to the 
FBI, but I believe I need to leave that up to the Justice 
Department to continue its discussions with the various 
committees up here as to what might be included in any 
additional legislation.
    Mr. Serrano. You are not free at this time in your thought 
process to tell us what you would like to see for the FBI?
    Mr. Mueller. At this point in time, I am not free.

              AUTHORITY IN ARRESTING IMMIGRATION VIOLATORS

    Mr. Serrano. I do not think too many of us are, but anyway.
    Let me ask you a question here. The Attorney General signed 
an order giving FBI agents and U.S. Marshals authority to 
arrest people on immigration violations. Now, why was this 
order necessary, in your opinion? Didn't you have already 
sufficient authority to do this anyway?
    See, what is happening for some of us, Director Mueller, is 
that a lot of what we hear is being done we thought was in 
place already. So we get nervous about why it is coming into 
place. And then in other cases, why would you want some people 
involved in that particular area? So what are your thoughts on 
this? I thought you had this authority already?
    Mr. Mueller. I think our concern is if a person is out of 
status, in other words a civil and not a criminal violation and 
there is no INS officer around, and now understand that the 
federal government is focused upon them, there was some 
question about what authority we might have under those 
circumstances.
    In my mind, this clarifies that, so if we are out doing an 
interview and we do determine that the person is an illegal 
alien that we do not have to hold that person and call for an 
INS inspector to come and do the arrest.
    So in my mind, it is a change that clarifies our capability 
of detaining a person until such time as we can bring that 
person before an INS officer. And I do not think that it is a 
substantial advance in terms of giving us an authority that we 
would exercise in ways that we have not in the past.
    Mr. Serrano. All right, and that was my final question. 
Since I know you are concerned about overreaching, do you think 
that this in any way allows the Bureau in the future just to 
become too powerful beyond what it should be?
    Mr. Mueller. I do not.
    Mr. Serrano. Well, that's it then. Thank you so much.
    Mr. Wolf. Thank you, Mr. Serrano.
    And Mr. Director, we are going to recess. I want to thank 
you for your service. And we appreciate all of your employees, 
the agents and non-agents, for the great work that they do and 
we look forward to working with you in resolving some of these 
issues.
    Mr. Serrano. Mr. Chairman, if I may. I would like also to 
go on the record--you know my feelings--and ask the Director to 
take back to all the folks that work at the Bureau that we take 
very seriously the work they do and we know that they are doing 
the best that they want to do and that they can do, and that 
none of my comments should ever be construed as a lack of 
support for what they do, but rather just a little nudge every 
so often to make sure mistakes are not made like they were in 
the past.
    Mr. Mueller. I understand, thank you.
    [Recess.]
    Mr. Wolf. We will bring the hearing to order, and I want to 
welcome both of you, and I thought it would be helpful if we 
had both of you up here.
    David Walker, Comptroller General, General Accounting 
Office, Richard Thornburgh, FBI project panel, also governor, 
former governor of Pennsylvania, my former home state until I 
left to come to the great Commonwealth of Virginia.
    They are both commonwealths, so I kind of----
    Mr. Thornburgh. Lateral move.
    Mr. Wolf. A lateral move. [Laughter.]
    And Attorney General of the United States. Both of you, if 
you would summarize your statement, and we will go right to 
questions.
                              ----------                              

                                          Wednesday, June 18, 2003.

                       GENERAL ACCOUNTING OFFICE


                                WITNESS

DAVID WALKER, COMPTROLLER GENERAL OF THE UNITED STATES, GAO
    Mr. Walker. Thank you, Mr, Chairman.
    I appreciate the opportunity to return today to discuss the 
FBI's transformation efforts. As you know, it was a year ago 
that we appeared together on this same topic.
    Last June I highlighted the importance of the FBI's success 
in transforming itself, noting several basic aspects of a 
successful transformation effort that needed to be conducted at 
the FBI as well as the government at large.
    Clearly, the FBI has made considerable progress in the year 
that has passed since last June. As I mentioned last year, and 
on a number of prior occasions, strategic human capital 
management is the centerpiece of any change management effort, 
whether it be at the FBI or anywhere else in government.
    Thus far, we are encouraged by the progress that the FBI 
has made in a number of areas since last year's announcement of 
their phase two reorganization.
    Specifically, the commitment of Director Mueller and senior 
leadership at the FBI is clearly evident. The FBI has enhanced 
its communication priorities. It has taken a number of steps to 
realign its activities and processes and has sought additional 
resources where necessary.
    However, a comprehensive transformation plan with key 
milestones and assessment points to guide the FBI's overall 
transformation effort is still needed.
    In addition, as I testified last June, the FBI can and 
should reinforce its transformation efforts through its 
performance management system by aligning unit, team and 
individual employee performance expectations with planned 
agency goals, objectives and desired outcomes.
    Coupled with this alignment is the need for a performance 
management system for individual agents and other employees 
that makes meaningful distinctions in performance.
    Candidly, the FBI's current pass-fail system will not get 
the job done. It is critically important that they modernize 
their performance appraisal system, aligning it to the 
strategic plan, with desired outcomes, with priorities of the 
director and that they focus more on critical competencies.
    This is especially important given the fact that the FBI 
needs to engage in a fundamental transformation, and therefore 
the needs to moderize its institutional and individual 
performance measurement and reward mechanisms.
    Although a strategic plan is vital to any organization's 
transformation effort, the FBI has yet to complete its 
strategic plan. At the same time, the Office of Strategic 
Planning has developed a framework for a revised strategic 
plan.
    As I noted earlier, employee involvement is critically 
important in developing a strategic plan that is understood and 
supported within the work force, and it is clear that FBI 
executive management seems to have recognized this.
    FBI management seems to also have been effective in 
communicating the agency's three top priorities, namely 
counterterrorism, counterintelligence, and cybercrime 
investigations to its staff.
    In our view, completion of a revised strategic plan is a 
essential to guide for decision-making and the FBI's 
transformation.
    In my statement last June I also highlighted the importance 
of developing a strategic human capital plan in order to aid in 
the FBI's transformation efforts.
    This plan should be linked to the strategic plan, and it 
should guide the overall agency realignment efforts and work 
force planning and execution activities.
    The FBI has yet to complete a human capital strategic plan. 
They have taken a number of steps that are positive, they are 
also looking for a chief human capital officer in addition to a 
chief information officer, both of which are critically 
important positions that need to be filled as soon as possible, 
but importantly with the right type of person.
    A key element to the FBI's reorganization plan and 
successful transformation is the realignment of its resources 
to better focus on high priorities.
    As my testimony notes, and I assume, Mr. Chairman, the 
entire testimony will be included in the record, thank you very 
much, sir.
    Mr. Wolf. The testimony of you both will be in.
    Mr. Walker. Thank you very much, Mr. Chairman.
    For example, about 26 percent of the FBI's field agent 
positions were allocated to counterterrorism, 
counterintelligence and cybercrime programs prior to the FBI's 
change in priorities.
    Since that time, as a result of staff reprogramming efforts 
and funding for additional special agent positions, the FBI 
staffing levels allocated to counterterrorism, 
counterintelligence and cyber program areas have increased to 
about 36 percent.
    So it has gone from 26 percent to 36 percent during that 
period of time.
    Last year at this time, the FBI announced that in keeping 
with its new priorities it would move 400 field agent positions 
from the drug program to counterterrorism.
    Indeed, the FBI has transferred even more agent positions 
than it originally announced, and has augmented those agents 
with short-term assignments of additional field agents from 
drug and other law enforcement areas to work on 
counterterrorism.
    So there have been permanent reassignments of more than 
400, but in addition to that, some other individuals who were 
not permanently reassigned have been spending time on 
counterterrorism, activities, because, as Director Mueller 
pointed out, he has given instruction that every 
counterterrorism lead needs to be followed up on. And so, 
therefore, they are doing whatever they have to do, with the 
resources they have, to deliver on that mandate.
     Since September 11, 2001, about 40 percent of the 
positions allocated to FBI field office and drug programs have 
been allocated or reallocated to counterintelligence and 
counterterrorism activities. While this reduction represents a 
substantial decline in the number of field agent positions 
allocated to drug work, in fact, the reduction in drug 
enforcement work years was actually larger, for the reasons 
that I articulated.
     At the same time, we want to make clear that we are not 
intending to fault the FBI for this reassignment of agents from 
drug enforcement to other high-priority areas. Indeed, some 
reallocation of resources is clearly necessary.
    And as Director Mueller said, and Mr. Chairman, as you and 
I briefly spoke earlier today, I think one of the things that 
the FBI has to do is to understand what are the critical 
elements that it needs to accomplish. Where is there a critical 
need for a federal role.
    What are its institutional capabilities? What are its core 
competencies? And what are they doing to make sure that it is 
allocating its resources to where it has the most effect for 
the nation.
    In some cases, there are a number of players that are 
involved in the field, for example, in drug enforcement. 
Therefore, it is important to be able to understand who those 
players are, what they bring to the table, who is going to be 
the lead, and make sure that they allocate the right type of 
resources, but giving highest priority to the ones where their 
involvement is absolutely essential to success.
    The DEA, the lead federal drug enforcement agency, has 
taken a slightly larger role in domestic drug enforcement 
through increasing its participation in interagency drug 
enforcement activities, given the FBI's reallocation of 
resources. The overall reduction in combined FBI and DEA 
staffing for drug enforcement and the change in strategy moves 
additional drug enforcement to lower levels of government at a 
time when most state and local budgets are under intense 
pressure.
    One of the things that bears monitoring is, if we are 
asking state and local governments to do more, do they have the 
capability to do more? Are they doing more in order to make 
sure that we do not take our eye off the ball?
    With regard to selected other human capital issues, 
briefly, based on our survey work and field office visits, both 
management officials and field agents indicated that inadequate 
numbers of Intelligence analysts and foreign language 
specialists resulted in delays in investigative work.
    Also, agents expressed a need for additional computer and 
technical specialists. In addition, FBI management and special 
agents with whom we met indicated that staffing level of 
administrative and clerical support personnel was inadequate 
and that this adversely affected the efficiency of their 
investigative activities.
    Mr. Chairman, Representative Serrano, let me just say that, 
in summary, we have seen a significant amount of progress in 
the last year. There is absolutely no question that director 
Mueller and his leadership team are dedicated to taking 
concerted action to transform the FBI in light of the new 
realities of a post-September 11 world.
    It is tragic what happened on September 11, but one of the 
things that it has caused is it has demonstrated not only to 
the men and women of the FBI but also those who comprise the 
Department of Homeland Security and others that are involved in 
our counterterrorism fight and efforts to protect the homeland 
that it is a new ballgame.
     That wake-up call has served as a call to action. And that 
was very clear in the interaction that we had with top 
management as well as the interaction that we had with line 
agents, both the special agents-in-charge as well as special 
agents in the many cities that we went to over the past months.
    Mr. Chairman, I look to continued support, this 
subcommittee and the Congress in this area, and look forward to 
your questions after the attorney general has a chance to 
speak.
                              ----------                              

                                           Wednesday, June 18, 2003

               NATIONAL ACADEMY OF PUBLIC ADMINISTRATION


                                WITNESS

RICHARD THORNBURGH, FBI PROJECT PANEL CHAIR, NAPA
     Mr. Thornburgh. Thank you, Mr. Chairman, Chairman Wolf, 
Representative Serrano.
    It was a year ago, on behalf of the National Academy's 
Public Administration's Panel, that I testified before this 
subcommittee on the FBI's proposed reorganization plan.
    At the subcommittee's request, we have continued to monitor 
and assess the reorganization process this year.
    Mr. Chairman, I think it is fair to say the FBI has 
embarked upon a wholesale transformation, not just a 
reorganization. As Director Mueller testified, the FBI in June 
2003 is a changed organization from where it was a year ago.
    Its transformation has changed the business model on which 
the agency was conceived and developed. The most fundamental 
shift is from simply responding by investigating a myriad of 
federal crimes after the fact, to preventing terrorism, 
espionage and cyber crimes before the fact.
    This shift is driving major institutional change. In many 
national cases, increased headquarters management, greater 
headquarters field coordination and expanded cooperation are 
essential. Greater contacts with domestic and international 
counterparts and extensive information exchange with other 
enforcement agencies and the nation's foreign intelligence 
community are also vital.
    Simultaneously, the FBI's law enforcement relationship with 
other entities is changing. These entities are assuming greater 
responsibility for some aspects of traditional law enforcement. 
The FBI must, however, continue to contribute its specialized 
skills and extensive national and growing international efforts 
to support their work. If this new division of responsibilities 
is to be successful, strong cooperative relationships with the 
rest of the law enforcement community will be essential.
    An important building block in this transformation is an 
extensive and robust information network. Modern communications 
and information processing technologies are needed not only to 
connect the dots, but also to facilitate timely exchanges of 
information and intelligence. Success will require major 
changes in many areas, including the FBI's strong institutional 
history of cultural independence, its personnel and training, 
its use of technology and its pattern of external 
relationships.
    There are several early signs of success.
    First, headquarters and field personnel are highly 
energized. They are embracing, and not resisting change.
    Second, the FBI is continuing to acquire top-notch outside 
talent incorporating them into its work force and accommodating 
different perspectives in its work place.
    Third, resources are being allocated to reflect the new 
priorities.
    Director Mueller is to be commended for successfully 
communicating his vision of a new FBI to the bureau's agents 
and support staff, instilling a new sense of mission and 
dedication and opening new lines of communication, both 
internally and externally.
    While early signs are indeed encouraging, let me temper our 
overall assessment with some words of caution.
    Institutional transformations do not occur overnight, and 
they involve major cultural change. Our review is focused on 
the FBI's near-term actions, but many important tasks will 
continue for years into the future.
    With careful planning, the commitment of adequate resources 
and hard work, the FBI's transformation should be well along in 
another three or four years, though it will take longer to 
fully accomplish its goals.
    While this time table may be longer than we would prefer, 
with it comes the promise of significantly improved 
counterterrorism and information exchange capabilities.
    Mr. Chairman, I would like to move briefly to the five 
areas that the Panel believes are fundamental to the FBI's 
transformation. I will focus on the panel's views on 
counterterrorism, intelligence, information technology, 
reengineering projects and advance science and technology. 
Detailed recommendations in these and other important areas are 
set forth in our written statement.
    Counterterrorism is the centerpiece of the FBI 
transformation and the driving force behind many of the 
restructuring and process reengineering projects that are 
currently underway. The rationale is well known. The need to 
reorient the FBI to combat terrorism by penetrating domestic 
cells, preventing terrorist acts and investigating and 
facilitating prosecution of its planners and participants. 
Director Mueller's strategic priorities clearly place these 
tasks above all others.
    Over the past year, the FBI has made solid progress in 
structuring improved counterterrorism and intelligence 
operations in its new counterterrorism division. I refer you to 
our statement for a specific list of accomplishments.
    It is, however, premature to claim success. Much remains to 
be done. For example, the priority of counterterrorism must be 
ingrained within the entire organization. And a long-term 
strategy to guide counterterrorism efforts and judge success 
needs to be completed.
    With respect to counterterrorism, the panel is concerned 
about several things. First, as the chairman expressed, when 
the Counterterrorism Division moves outside of current FBI 
headquarters, its separation could exacerbate differences 
between the FBI's national security missions and its law 
enforcement activities, to the detriment of both 
counterterrorism and other bureau components.
    Second, the FBI needs to maintain highly competent analytic 
capabilities and independence, so that critically important 
intelligence judgments are not obscured by bureaucratic 
tendencies to compromise to the lowest common denominator.
    Third, the increased sharing of information across the 
divide between intelligence abroad and law enforcement at home 
should not obfuscate clear divisions of responsibilities. These 
need to remain clearly defined and not left to ad hoc 
construction.
    Finally, Mr. Chairman, the FBI can not connect all the dots 
if it does not have all the dots in the first place. Clearly, 
the FBI has increased its information exchange with state and 
local law enforcement and the level of coordination and 
cooperation with the CIA has improved significantly.
    But in the course of our review, no clear picture emerged 
on information sharing. The fact is, we just do not know how 
much information is being shared, for example, between the FBI 
and the National Security Agency, the Defense Intelligence 
Agency and other intelligence community components. Though we 
can be reasonably assured it is not everything.
    The panel recommends that the FBI's Counterterrorism 
Division remain closely coupled to the FBI Director and the 
rest of the FBI. In addition, the panel recommends that the FBI 
develop performance measures for counterterrorism, and adopt a 
strategy to address information sharing and measure the 
progress being made.
    Better intelligence is critical to the FBI's mission, 
particularly if the Bureau is to be successful in preventing 
terrorism. Its new Office of Intelligence is planned to be a 
small but important focal point for intelligence management, 
supporting all of the FBI's key operational directorates. Plans 
for this office's functions and responsibilities are only 
beginning to be developed, and are far from being realized at 
this point.
    The FBI's intelligence improvements to date have been 
focused on the high priority counterterrorism area. But it is 
clearly premature to judge their success.
    As the structural and administrative aspects of the 
intelligence offices are developed, the panel recommends that 
it gives top priority to requirements definition, collection 
assignments, and collection evaluation. The Office of 
Intelligence should remain a relatively small staff component.
    Last year, we highlighted our concerns about information 
technology. And Director Mueller made upgrading the FBI's 
information technology one of his major priorities. To help, he 
brought in a number of outside experts.
    In the last 12 months, the FBI has deployed new desktop 
computers and a high-speed communication network, which the 
Director outlined.
    These efforts were completed on schedule, and together they 
provide the backbone of the FBI's new internal processing 
capabilities.
    According to FBI officials, the next phase of Trilogy, 
implementation of the all-important virtual case-file software, 
is on schedule.
    The FBI has also taken advantage of modern information 
technology in other areas. It is building a new investigative 
data warehouse. It has acquired commercial software to assist 
analysts' search through that data.
    It is also addressing longer-term policy, investment 
process, and organizational changes needed to help assure the 
future infusion of information technology. For example, it will 
no longer develop systems in house, and contractors are 
directed to make maximum use of commercial, off-the-shelf 
products.
    While the Panel was encouraged by early indications of 
success, once again we must note that they are just that: early 
indications. Much remains to be done. The FBI is just catching 
up to where most other federal agencies are already. And the 
jury is still out on whether the bureau will be able to take 
full advantage of modern information technology.
    To improve the bureau's information technology, the Panel 
recommends that the FBI maintain Trilogy as a state-of-the-art 
system through ongoing modernization and annual funding for 
upgrades, hire a well-qualified CIO, strengthen the role of the 
CIO's office, and document an enterprise architecture.
    In our testimony last year, we urged the Director to adopt 
a systematic management approach to its proposed 
reorganization. The FBI initiated a series of nearly 40 re-
engineering projects to change business processes and create a 
process to track progress. This approach provides for 
leadership buy-in, active participation by implementing 
components and independent monitoring by the FBI's Inspection 
Division.
    Attached to our complete statement is an inventory of these 
engineering projects and the areas they cover.
    These project plans often include measures of performance, 
but many are input oriented. Output performance measures are 
not fully developed, and need to be included in the FBI's 
strategic plan and operational strategies.
    The Panel recommends that the re-engineering process 
continue to be used to stimulate management action. Performance 
measurement should receive increased emphasis, and the panel 
believes the bureau needs outside advice and assistance in 
developing output and outcome performance measures.
    The Panel's review involved areas such as information 
technology, cyber intrusions, and investigative technologies 
characterized by rapid technological change. However, the press 
of current business, including that associated with 
transformation, makes it difficult to keep pace with 
technological change.
    For example, the demands of wiretaps, computer forensics, 
and electronic support activities are consuming increased 
resources. At the same time, new technologies, such as 
biometrics, facial recognition, and encryption, are developing 
rapidly.
    The Panel is pleased to note that, at the direction of this 
subcommittee, the FBI is in the process of establishing a 
science and technology advisory board. In addition, the FBI has 
hired a new chief technology officer from outside the bureau 
and is in the process of selecting a new chief information 
officer.
    With respect to advanced science and technology, the panel 
recommends that the FBI use its lead technologist and the new 
advisory board to foster an active dialogue with the private 
sector and with other government agencies on the use of 
advanced technologies.
    The FBI should also consider adding a technology appendix 
to its strategic plan to address the major technologies 
affecting its mission.
    Before completing, Mr. Chairman, the Panel would like to 
highlight two additional areas that were not part of our 
review, but are nonetheless fundamental to the bureau's pivotal 
transformation, namely information sharing and cultural change.
    Information sharing is pivotable if the FBI is going to 
become the lead domestic agency in preventing terrorism, 
perform its other national security functions, and retain its 
status as the nation's premiere law enforcement agency. It 
needs to become a routine part of headquarters/field operations 
within the FBI.
    Externally, it must be a two-way street, where the FBI and 
intelligence agencies exchange intelligence and the FBI and 
other law enforcement agencies share information on terrorism 
and many case investigations.
    This is particularly critical in counterterrorism, but it 
applies to other national security concerns and to many 
criminal cases as well.
    The bureau deserves high marks for broadly sharing threat 
information and building information bridges to the 
intelligence agencies in the law enforcement community at home 
and abroad.
    Nonetheless, maintaining this commendable record will be a 
continuing management challenge. It will require constant 
reinforcement through training, collaboration, and cooperation 
in intelligence, investigative, and law enforcement operations.
    The Panel addressed information sharing in virtually every 
area of its review, but we wanted to reiterate its overriding 
importance in transforming the bureau.
    The second area is closely related: the changed culture and 
values that must accompany the FBI's transformation. The 
traditional values and traits of FBI agents must expand to 
include the values of joint collaboration, interagency 
cooperation and information sharing. The historically strong 
camaraderie among FBI agents and the bureau's reputation for 
integrity and professionalism may make these changes seem 
difficult. But these very characteristics should in fact help 
the FBI's transformation succeed.
    The changes in cultures and values need to be buttressed 
with leadership training and assignments that put training into 
practice and reinforced by resource allocations that recognize 
these new values.
    This new landscape will not be familiar. And the transition 
will not always be smooth. But from it, a new model of the FBI 
can emerge, one much better equipped to meet the nation's 
needs.
    Mr. Chairman, that concludes my statement. I would be 
pleased to answer any questions that you or the members have.
    Thank you.
    Mr. Wolf. Well, we want to thank you both and thank the 
people that helped you with regard to that.
    I have a whole series of questions. Maybe the best thing to 
do is, since they kind of overlap and both of you have a lot of 
experience, and let me just say for the record that Director 
Mueller is still here, which I think is good. I appreciate him 
being here.
    Maybe as I ask a question, either of you could kind of 
comment.
    On the changes about values and the culture that he just 
ended with, should there be a course curriculum change at 
Quantico? I mean, should anything dramatic be done at Qauntico 
that is different?
    That is when you bring the agent in. That is the first time 
their foot hits the ground and they begin to develop the 
culture and the change. Should anything change at Quantico?
    Mr. Thornburgh. I agree with Director Mueller's observation 
that these kinds of changes have to be constantly monitored. It 
is a new era. It is a new bureau. And obviously the old ways of 
training and indoctrination are not going to necessarily 
suffice.
    I am not an expert in curriculum design, but I am an expert 
enough to know that a static curriculum is not going to serve 
during this time of change.
    Mr. Walker. Well, first I think as the governor has noted, 
this is really a transformation effort. The FBI has completed 
the first inning of what will be at least a seven inning ball 
game. Clearly, they need to look at the type of training that 
is provided, not just for new agents. Frankly, the biggest 
challenge is not going to be the new agents. The biggest 
challenge is going to be the agents that have been there for 
years, because in any type of cultural transformation, it is 
easiest to deal with the new people, because they are not 
encumbered with the past.
    Therefore, you can end up training them from the outset on 
the new values, the new philosophies, the new measures, the new 
mechanisms, tools and methods, if you will. And it is 
relatively easy, but there will be a higher degree of 
difficulty, than the new people, in training the executives. 
But the real challenge is in the middle.
    Once they end up developing the new strategic plan, once 
they end up having their new metrics and mechanisms, then it is 
going to be important to take a look at their training at 
Quantico and elsewhere and to incorporate those concepts, not 
just for the new people, but to try to be able to make sure 
that they are addressing the other people that make up the FBI, 
especially the people in the middle, who are going to represent 
the biggest transformation challenge.
    Mr. Wolf. On information sharing, do you have any feelings 
on the TTIC, how it is set up, where it is located and a CIA 
employee runs it, that it reports to the director of the 
Central Intelligence every day? Does that create a problem?
    Mr. Walker. I'll start, Mr. Chairman, and say I agree with 
Director Mueller that there is a difference between analysis 
and operations. At the same point in time, let me just say that 
the CIA is not a model of transparency and accountability. And 
so I have some concern with the fact that it is co-located 
there, and that they are in charge and the fact that, at least 
based on past experience, there has not been as much oversight 
with regard to CIA activities, some of which is very 
understandable.
    But I am concerned about what, if any, impact this is going 
to have on the ability of Congress and its representatives to 
be able to conduct appropriate oversight and inquiries.
    Mr. Wolf. Mr. Thornburgh.
    Mr. Thornburgh. Yes. Obviously, physical location is not 
the be all and end all when it comes to assessing this kind of 
a change. But I think, as we indicated in our statement, there 
is some concern about a disconnect that potentially could arise 
from dispersion over a large geographic area of all of these 
components.
    I hope that TTIC is a work in progress and that it will be 
constantly assessed and reassessed by those people who are 
involved in its day-to-day operations.
    It is a highly complex and ambitious undertaking and 
deserves constant scrutiny within the administration and by you 
and your colleagues on the Hill.
    Mr. Wolf. Would it help to rotate the director from the 
FBI, CIA, FBI, CIA, back and forth, something like that?
    Mr. Thornburgh. That would be a possibility. I think that 
the emphasis should be on it being a joint operation. And 
anything that reinforces that, such as you suggest, might be 
useful.
    Mr. Wolf. And on Governor Thornburgh, the thing on the 
relocation, do you have any comments? I think they have already 
signed the lease.
    Mr. Walker. Physical location is not as important as who is 
in charge and what is going to be the basis for oversight. Who 
is going to have the jurisdiction for oversight?
    Mr. Wolf. Well, the counterterrorism division moving out 
there along with them, is that a concern?
    Mr. Walker. I think it is a matter of potential concern. I 
think what we have to see is in actuality, how do things 
operate in practice, and what type of role does Congress play? 
And what type of cooperation does Congress get with regard to 
reasonable and reasoned oversight inquiries with regard to 
TTIC?
    Mr. Wolf. Well, maybe not a lot. Maybe not a lot. There is 
more I can say on that, but I will not go into it right now.
    Do either of you have an opinion on MI-5? Good idea? Bad 
idea?
    Mr. Thornburgh. I have long felt that it is not compatible 
with the law enforcement and intelligence structures and the 
culture of those law enforcement and intelligence agencies in 
our country. It works for the United Kingdom, but the 
difference between the UK structure and culture and ours, are 
many and varied. And I think we would want to proceed very, 
very carefully in studying whether that is applicable mutatis 
mutandis in the United States.
    Mr. Wolf. Well, I agree with that. I just wanted to get it 
on the record. And quite frankly, the United States has done a 
better job than Britain with all due respect.
    Mr. Thornburgh. I do not think it is going to happen, Mr. 
Chairman.
    We have not done enough work to reach a conclusion, Mr. 
Chairman, I would note that in addition to cultural 
differences, we have a constitution, and the UK does not. And 
that is a substantive difference.
    Mr. Wolf. Well, I am sort of trying to lay things out when 
there has been silence on the part of some in the Justice 
Department. And I think the sooner the Administration says this 
is the way it is going to be, and not wait to see who the 
presidential nomination is going to be and who is going to run. 
I know one guy running is talking about this. I think they 
ought to say this is the way it is going to be, period. We are 
setting our sails. We are moving and that is it.
    I want to stay on that issue of career. How does the Bureau 
make it clear that, if you are a young agent, that by getting 
into counterterrorism, since Mr. Mueller goes to the White 
House every morning to talk about counterterrorism, not the 
Mafia and not public corruption. How do you send the message to 
the young agent that that is not the career track, that I am 
not a second class citizen by busting the Costa Nostra or 
sending a corrupt politician to jail. What about that? How do 
you make sure?
    Mr. Wolf. I am sure that both tracks are legitimate and 
valid and that you should feel not that one gets you to be a 
boss and the other does not get you there.
    Mr. Thornburgh. My observation in many years of dealing 
with the Bureau is a good agent is a good agent. And they are 
going to be the ones that are properly motivated and committed 
to the task. And it is got to be made clear, as the Director 
indicates, that these are career paths that can lead somewhere.
    And I think there is no better example in an ironic way 
than his willingness to bring in people from the outside with 
no bureau experience who can bring enormous talents and skills 
to this reformulation of the task for the bureau.
    And I think his promotion and recognition of agents who 
were not on a particular career path for key roles in this 
transformation supplements that.
    I don't want to damn him with loud praise, but I think one 
of the things that the Director has done is to recognize the 
need, that this organization is about its people, and they have 
to be properly motivated, and they have to be given directions 
that indicate the cream is going to rise to the top.
    And that cures an awful lot of ills and can stifle a lot of 
the normal back-biting and bureaucratic intrigue that inflicts 
any agency. They rise or fall and the quality of the leadership 
is provided. And I perceived this leadership to be absolutely 
first class.
    Mr. Wolf. What the Director says and does makes all the 
difference.
    Mr. Walker. Mr. Chairman, I would respectfully suggest that 
actions speak louder than words, and in the final analysis, no 
matter what one says, the question is going to be on what basis 
individuals are recognized and rewarded and promoted and what 
are the opportunities that are afforded to individuals here 
irrespective of what area they are in.
    While I would agree with the director that there are a lot 
of commonalities in information gathering and analysis between 
the different lines of business that the FBI might be in, there 
are some fundamental differences, because obviously when you 
are in law enforcement the standards of evidential matter and 
the timing in which you have to act are very different. 
Generally, you have the luxury of a lot more time. The 
standards are higher and the length of time is a lot more 
generous than when you are in the counterintelligence business.
    So you might be information gathering and doing analysis, 
but you have to act much quicker, and you do not have the 
luxury of being able to go through all of these different 
layers and levels because of the sense of urgency associated 
with the task.
    So I think in the final analysis it is going to be actions 
that count.
    Mr. Wolf. Well, we are following your testimony. None of 
these are prepared. I just wrote these down. In the Navy, I had 
an AA who was a submariner. In addition to the aviators and the 
submariners, there were those in the surface fleet. There is a 
big difference in who's going to be the next CNO, and that is 
what I was trying to think in terms of.
    State and local government does not have any money. I got a 
letter a week ago from the governor of Virginia asking for 
money from the Federal government. So they are not picking up 
anything. Quite the contrary, we are actually picking up for 
them.
    So I do not think they are going to be rushing in, and if 
they do, it is going to be more to get more money. And we are 
faced with a deficit in the country now.
    So a little bit on the drug issue. I know there are a lot 
of things that they should not but can give up. What are your 
feelings, both in the area of--I made a comment at the end--14 
of the groups that were mentioned by the State Department on 
the terrorist list--Hezbollah, Hamas--are involved in drugs. 
The Taliban with regard to their sexual trafficking, drugs down 
in the triboarder area down there with Brazil and those 
different groups that have gone on. You all know about that.
    What about the drug issue? I read an article the other day. 
It was about a locality I won't mention for the record. They 
said almost every crime committed in that locality had a drug 
connection, whether it be a person was addicted to drugs, they 
were robbing, something, but it all radiated, and quite 
frankly, I think as the Administration talks about changing the 
culture, my sense is this drug issue is very, very important.
    And it is terrorism if you are a mom or a dad and your son 
or daughter--I read about it yesterday, about the mess, what it 
can do to a person. So what about this drug issue? How much 
more should they get out? The administration has not made up 
the difference. They have taken 400 agents out plus they have 
taken other ones out. And now they have only put 250 to 300 in 
DA. What do you think about the drug issue?
    Mr. Walker. I would say that there is absolutely no 
question that there is a linkage between the drug issue and the 
terrorism issue. There is also no question that there is a 
linkage between money laundering and the terrorism issue.
    I think that one of the things that has to happen is one 
has to be able to assess what needs to be accomplished by whom.
    In the case of the drug enforcement area, we have got the 
DEA, who is the primary federal agency involved. We also have 
state and local officials. You properly point out that the 
states are under tremendous budgetary pressures right now, and 
frankly, we are under increasing budgetary pressures at the 
federal level as well.
    I think one of the things that has to happen is to define 
what is the proper role and responsibility for the FBI? Where 
can they add the most value? Where is their involvement 
essential or critical in order to accomplish our overall 
mission.
    We have to move beyond just the numbers and we have to make 
sure they are focused on the right cases and in the right 
areas. I think that is an area we are going to need to do more 
work for this committee, Mr. Chairman. I think that we need to 
look deeper than just the superficial numbers, because I am not 
sure that you get the full picture just by looking at them.
    Mr. Thornburgh. Let me just add a couple of thoughts to 
that. Number one, where there are direct connections between 
drug trafficking operations and the financing of terrorist 
operations, I would assume that a focus on those would be part 
of the counterterrorism operation, rather than a back door into 
increased anti-drug activity.
    And I think that is proper. That's not to say that there 
shouldn't be an FBI role in the anti-drug effort. Their work on 
the task forces that the Director referenced has been 
enormously important ever since those institutions first were 
created.
    The second area that I think is going to inevitably require 
more attention in this area is in the international area. 
Somehow or another there has to be a better and more seamless 
web of law enforcement cooperation worldwide in dealing with 
these drug problems.
    I mean, we often forget that there's not a single ounce of 
heroin or cocaine that's produced within this country. It all 
comes from outside the United States.
    Many of the countries where this is produced and 
transshipped through are suffering from drug problems of their 
own. But I think that we simply have to face up to the fact 
that we can increase our effectiveness many fold by enlisting 
the efforts, perhaps under the U.N. Drug Convention, which was 
signed in 1988 and yet really has not been fully implemented.
    We have not applied any sanctions to countries that have 
not taken their share of the responsibility there.
    But that could help, it seems to me, in the interdiction 
process in particular, in cutting off the funding that goes 
from any drug organizations to terrorist operations.
    Mr. Wolf. Okay, one last question, then Mr. Serrano.
    Do you think the Bureau needs more people? With 11,000 
people versus 40,000 New York City police--and I take my hat 
off to the New York City police, and my dad was a Philadelphia 
policeman, so I have a bias with regard to law enforcement. He 
helped start the Fraternal Order of Police.
    But the world is a big place. There is Hezbollah in the 
Baca Valley. There is Hamas is some of the camps. There is the 
Taliban coming back in Afghanistan. Conflict diamonds in Sierra 
Leone. Then there is trouble down in different places around 
this world. In Indonesia, the Bali bombings. Next thing you 
know, a Bali bombing takes, you got a couple of FBI agents on a 
plane going to Bali. Tanzania, they are going to Tanzania. 
Kenya, they are on their way to Kenya. USS Cole, they are on 
their way to Kenya. The Riyadh bombing, they are on their way 
there.
    There are areas that you can save. There are areas that you 
can deal with, and we cannot be everything to everybody and 
have everything we want. But in this area of security, I think 
government, national security, homeland security, protecting 
the base is very important.
    And my sense is, I think the Bureau, and I think because of 
the problems at OMB and people saying, Well, I cannot let this 
thing go up too much.
    Overall, do you think that this is an issue that ought to 
be really carefully looked at? The Bureau may need additional 
resources that they have not actually asked for.
    Mr. Thornburgh. I do not think there is any question about 
that in one respect, Mr. Chairman. I have not the wisdom to fit 
the FBI's needs into the overall needs of the nation. But I can 
certainly say with a great deal of confidence that the FBI 
could make good use of whatever they receive in additional 
manpower and resources.
    Their track record is, in my view, without parallel. They 
remain the premiere law enforcement agency in the world, and 
they are adapting very quickly and expeditiously to new 
responsibilities in a new age. And I think they can make good 
use of whatever they are granted in the way of resources.
    Mr. Walker. Mr. Chairman, I would say that I do not think 
there is any question that they could use more people. The 
question is, how many people, for what and when? And I would 
respectfully suggest that one of the things that they need to 
try to expedite is the completion of their strategic plan and 
their human capital strategy so they can make sure that they 
can hire the right kind of people, focus on the right things.
    And there is also a practical limit as to how many they are 
going to be able to absorb at any given period of time, and 
make sure that they are doing the right kind of job with those 
people.
    But I do not think there is any question. As we all know, 
in Maslow's hierarchy of needs, which I learned in 
undergraduate school, that safety and security is the 
foundation of all human need. It is fundamental. And post-9/11, 
there is a lot more concern about safety and security. And 
clearly, the FBI has a major role to play in that area.
    Mr. Wolf. And I am not only talking about agents. I am 
talking about analytical people and also support personnel. I 
have talked to people in different offices. They tell me that 
FBI agents, 18-, 19-year old men and women are filing and 
pulling files and stacking them up and have got to refile.
    So when I talk about additional people, it is not just on 
11,000 agents. It is on the analytical area and also on the 
support area.
    Mr. Walker. And our survey found evidence of exactly that, 
Mr. Chairman. That is why I am saying how many, for what, when 
and with what ability to absorb. Absolutely.
    Mr. Serrano. Thank you, Mr. Chairman.
    And thank you gentlemen for your service, for your help and 
for coming here today to join us.
    I will use the same approach as the chairman. I will just 
ask a question and, or both if you want, can to answer it.
    In your opinion, is the FBI on the road to being fixed? 
What do you see as continued problems at the FBI? And do you 
believe that the 2004 budget is adequate to protect the 
investment we have already made in the FBI, while continuing to 
address these deficiencies?
    Mr. Thornburgh. I will leave the budget questions to Mr. 
Walker. But I think, as indicated in our statement, that they 
have charted a course for a total redefinition, reformulation, 
if you will, of their role. And I think that puts them on the 
right track, that they are responsive to the needs of the day.
    It is not business as usual. It is not some more of the 
same. It is a fundamental redirection effort, which is 
extremely difficult to undertake in a sizable bureaucracy.
    But I am confident that Director Mueller's commitment to 
this initiative is going to carry the day eventually. Maybe not 
tomorrow, maybe not the next day. But the answer to your 
question as to whether they are going in the right direction or 
not is I would say definitely, yes.
    Mr. Serrano. And you stated, I believe, that there is a 
good feeling at the Bureau, that people welcome this change 
rather than resist it.
    Mr. Thornburgh. Yes. I think that there is a degree of 
enthusiasm for this kind of change, and an identification with 
the goals that the Director has stated.
    FBI agents are patriots. They believe in their country. 
They see their country threatened, and they are eager to sign 
on to a vision that will provide the protection that they and 
their families and their communities need. I think that is 
never to be overlooked, the quality of the people that the 
bureau attracts.
    Mr. Walker. Mr. Serrano, I think September 11th was a 
wakeup call. I think from evidence of the work that we have 
done in the field as well as at headquarters in both interviews 
and survey work that most people at the FBI understand that 
this is a new ball game. They need to transform what they are 
doing and how they do business.
    I think they are off to a very good start. We have seen the 
first inning, and I think they are ahead of schedule after one 
inning. But it is at least a seven-inning ball game.
    Clearly, they are going to need to continue to have support 
for their communications and technology enhancements. It was 
amazing to me what poor communications technology the FBI had 
as recently as two years ago, just basic technologies to be 
able to talk even within the FBI, much less across different 
organizational structures.
    I think at some point in time, they are going to need 
additional investments in the human capital area, once they end 
up getting their plan down and know what they really need and 
in what relative quantities. I think at some point in time they 
are going to need additional investment there.
    Beyond that, I really would not have much more to say at 
this time.
    Mr. Serrano. And with that in mind, especially with your 
last comment about what needs they have for the future, do you 
believe that the appropriate safeguards are in place and ensure 
effective oversight of the FBI? And what could Congress do, in 
your opinion, to improve its oversight?
    Mr. Walker. I mean, obviously, this subcommittee is taking 
its responsibilities seriously. Candidly, in today's world, the 
entire Congress needs to take oversight more seriously than it 
has in recent years.
    The only area of potential concern that I would have right 
now is with regard to the intelligence area and information 
sharing and related analytical activities. It is not clear to 
me how the Congress plans to effectively discharge its 
responsibilities for oversight in those areas. And that would 
be the only area right now that I would say on a preliminary 
basis I have some concern about.
    Mr. Serrano. Could you just elaborate on that a second 
because I have a thought on that.
    Mr. Walker. Clearly, obviously one of the things that has 
been mentioned on a couple of occasions today is the fact that 
the FBI is a key player, but it is one of many players involved 
in trying to help better protect our homeland and deal with 
counterterrorism and related type of activities.
    One critical element of that is information gathering, 
analysis and dissemination. The FBI is an important player but 
the question is whether it be TTIC or other type of activities 
that are interagency in nature, then who is going to conduct 
the effective oversight of these activities? How aggressive is 
it going to be? How cooperative are the entities going to be 
with regard to any congressional inquiries or inquiries by the 
Congress' agents?
    I think the jury is out on that.
    Mr. Thornburgh. Let me just add a couple of thoughts. 
Again, I have to compliment this committee, its chairman and 
ranking minority member for the kind of oversight that we are 
engaging in today. I think this is a model for the kind of 
examination that should be given and scrutiny that should be 
given to the basic kinds of changes that are taking place in 
the FBI. And I want to compliment the members for that.
    I think another feature is the director's willingness to 
bring to bear resources that are unconventional within his 
organization, bringing in people with experience in the private 
sector to take a look at and overhaul areas where obvious 
deficiencies exist.
    And finally, his own oversight efforts. For example, asking 
Judge Bell to chair an oversight of the inspection operation, 
which had some obvious deficiencies. I mean, this is an 
organization that is somewhat of a rarity among federal 
government organizations--one that is open to suggestion, 
change and constructive oversight. And I would urge the 
committee to continue its exemplary job of providing that kind 
of oversight.
    I think it will be a benefit to all members and to the 
country.
    Mr. Serrano. Well, I certainly thank you for your comments 
about the Committee. And we owe that leadership to our 
Chairman, Mr. Wolf, who stays on top of these subjects.
    But it is interesting that you bring that up because the 
comment I would like to make is that one of the difficulties 
that members of Congress have had during this period since 
September 11, and why individuals like yourselves and everybody 
in this room have to make us feel more comfortable with what is 
happening is that you will find in private conversations, be it 
over lunch or walking in the hallways to a vote or something, 
that there are a lot of members of Congress concerned about a 
lot of the things that you have heard me bring up today that we 
do not know, what our role should be and how far we should 
question and ask during this period. There are many of us 
concerned that, well, am I helping the enemy by trying to do 
this? Am I hurting the progress that we are supposed to make? 
Am I a good American?
    There are some, unfortunately, who say if you question 
anything you are a bad American.
    There are a lot of people who say, Well, I do not want to 
do that. I am a patriot above all.
    And so, believe me, even for those of us that ask questions 
like I do, it is not that I decide I am going to go there and 
create problems. I think hard about what am I saying and who is 
listening.
    And so it is interesting to hear you say Congress has to 
play a role. This Committee has played and should continue to 
play a role. But be aware of the fact, in your private roles, 
and your public roles, that many of us are nervous about what 
it is we should be doing. Probably I should not say in front of 
the cameras that members of Congress are nervous. But that is a 
fact of life.
    Mr. Walker. I would respectfully suggest, Mr. Serrano, that 
it is a reality. I mean it is one of the after effects of 9/11: 
What is appropriate, what is not appropriate?
    I would also respectfully suggest that you need to use 
entities like GAO to act on behalf of the institution of the 
Congress to get the facts and to provide those facts to 
interested members of Congress and committees of Congress.
    And as you know, when we do work, then agencies always have 
an opportunity to review and comment on it. Furthermore, they 
have an opportunity to classify it. Furthermore, even in the 
post-9/11 environment, in certain circumstances where they 
decide to classify all or part of the information or not, we 
may voluntarily end up taking certain steps, like not putting 
it on the Web, because we do not want it to be available 
anywhere in the world, at any time, by anybody.
    And so in times like these, I would respectfully suggest 
that it is probably better to use the institutional mechanisms 
that the Congress has to try to be able to gather that kind of 
information with the appropriate types of reviews and 
safeguards, because it is more efficient that way and I think 
it might help you to try to achieve that balance as well.
    Mr. Serrano. I will just give you a brief example of what I 
am talking about, which is somewhat related to this whole 
issue. I have not found, in all honesty, a member of Congress 
who is a lawyer--I am not--who has not agreed with me and been 
outraged that there is an American citizen being held without 
seeing a lawyer and without charges being brought, the Mr. 
Padilla that I brought up earlier.
    Yet, if you ask, Here, will you join me in a public 
appearance? You are likely to hear, Well, but I do not know if 
that is the right thing to do at this period, because we are 
under attack. And so it is a dilemma how to do what is right to 
protect our country, the country we love and that we are here 
to serve, or we would be doing something else. And at the same 
time, we must stay with the reorganization, make the changes.
    Thank God for the fact that everything indicates Director 
Mueller wants change to take place. You know, he would like 
people to remember later on that he was not afraid to make 
changes.
    But we are caught in a quandary here because we do not know 
how far to push. I push, and maybe some day I will wake up and 
say, am I pushing too much? But not too many people are doing 
it.
    And please understand, I am not saying, Gee what a hero I 
am. Maybe I am the dumb one in the crowd, right? But I do not 
know that yet. But that is the problem we have right now.
    Mr. Thornburgh. Well, I have not heard anything subversive 
or unpatriotic in the member's questioning today. I think 
uniformly it has been very informed and very, I suspect, very 
helpful to the director and certainly to the other members. If 
somebody attacks you for the type of questions you have made 
today, let me know about it and I will----
    Mr. Serrano. Mr. Chairman, let the record show that I am 
not subversive or unpatriotic. [Laughter.]
    Mr. Walker. But I think part of the issue too is that no 
matter what business you are in to get the facts and to try to 
be able to put those facts in a broader context such that you 
can have an informed and intelligent debate about some of the 
issues of the tradeoffs between security and personal liberty.
    These are legitimate debates. But you need to have the 
facts and you need to have them put in a proper context, in 
order to have an informed and intelligent debate about it.
    Mr. Serrano. Mr. Chairman, one quick last question.
    To reorganize a centrally placed organization like the FBI 
is a serious thing that these folks are undertaking. That has 
to have a ripple effect or a domino effect, if you will, on 
other agencies, other law enforcement agencies. What can you 
tell me about that? And what should we be preparing for?
    Mr. Walker. Two things off the top, number one, to the 
extent that the FBI is reallocating resources away from drug 
enforcement-type activities into counterterrorism, then you 
have to think about whether and to what extent DEA, state and 
local governments and others are changing their priorities, 
refocusing their efforts in order to deal with the issues that 
absolutely must be done. The needs versus the wants, if you 
will.
    So I think looking at what the ripple effect is, would be 
important. And I think that we cannot underestimate the fact 
that transforming an institution as large as the FBI has been 
around as long as the FBI is going to be a major undertaking 
and a multi-year effort.
    I am confident that with persistent attention from the top, 
attention by this committee and others, that they can be 
successful. But we cannot take our eye off the ball. You are 
going to need to continue to have hearings periodically and 
have inquiries done by NAPA and ourselves and others in order 
to try to make sure that you can stay on top of this.
    Mr. Thornburgh. I wonder if I could take the liberty of 
raising one question that we discussed briefly in our last 
session. There is going to come a time when, due to its ability 
and persistence, the FBI is going to interrupt a terrorist 
attack of some magnitude on this country and yet find itself 
unable to prosecute the perpetrators, because of a lack of 
legally admissible evidence to prove a case to a judge and jury 
beyond a reasonable doubt in one of our courts.
    That is because of the fact that there is a lot more 
exchange of information, and this is not in any reflection on 
the bureau's determination to do it by the book, but we are 
talking about an entirely different environment. And I would 
just ask that you and your colleagues be alert to that kind of 
a situation and maybe take a deep breath before there is any 
criticism forthcoming of the bureau for not being able to throw 
somebody in jail.
    The fact of the matter is that some very bad people are 
going to escape prosecution and imprisonment, even though they 
had planned the most heinous type of attack upon this country 
and its institutions.
    My hope is that that does not happen. But surely as night 
follows day, with these new ground rules and the exchange of 
information and intelligence, not to mention the fact that the 
sources and methods that produced the ability of the bureau to 
intercept some dreadful act might not be wise to have exposed 
in a criminal trial of those individuals. And I repeat that 
caveat, maybe unnecessarily, but be alert for that.
    Mr. Wolf. All right. Thank you. That is very good advice. 
And you know, the FBI gets criticized if they do not do 
something, and then they get criticized if something happens. 
So you kind of have that double edged sword.
    I appreciate your comments also on the oversight. As long 
as I happen to have this opportunity, I will hopefully do fair 
but aggressive oversight.
    There are some, and let me just stipulate, this is a train 
of thought. You triggered something that I have been dealing 
with for two months with regard to the Administration. I am a 
good Republican. I am a very conservative Republican, probably 
maybe more conservative than most of the Republicans and have 
very high support record of this Administration. I tried to go 
to Afghanistan. This Administration did everything they could 
to keep me from going to Afghanistan.
    I tried for two months to go to Iraq. They would not 
cooperate at all. I had to go to southern Iraq, drive in with 
an NGO and a private group. They just would not let you see.
    Now they are hitting heavy mud and they should have been 
open to having Members go in and see the torture chambers and 
go talk to the doctors who cut off the ears of people who 
defected and to be able to talk about the open graves.
    But they did everything, everything, literally, almost 
telling me that if it got to Baghdad they would not even talk 
to me.
    And so I think the Administration, if anybody is out there 
with this administration, listening, that they have to be open. 
I think openness is very, very important whether it be a 
Democratic member or Republican member, but to see and to have 
aggressive congressional oversight does not mean in a negative 
way.
    And I am pleased that this president is in. Want to see him 
stay. And think this Administration has done a good job. But 
they cannot hide these things. They must permit members of 
Congress to go.
    And if the member of Congress is going to vote for the 
policies with regard to Iraq, you just cannot tell us to move 
out of the way now. We gave our vote and did not forget our 
conscience.
    That is partially what worries me about the TTIC. There 
will be no congressional oversight of TTIC. If you are not on 
intel, you do not know what is going on. And so nobody knows 
where the TTIC is. Nobody knows. You go down on the Floor and 
ask members of Congress. They are not really even sure. I may 
be the only member that has actually gone out to talk to the 
people at TTIC.
    The person who runs the TTIC is a good man. He is actually 
a constituent of mine. He is a good person. But he is a CIA 
employee, and there are a lot of good people at the CIA. I 
stipulate they are. But I think truly to have it on an 
independent basis, and so there--with the current circumstances 
now in TTIC, there will be no congressional oversight, because 
there is no one who can publicly call them up and ask them, 
because it is under the CIA, out of Langley, that there will 
never be any opportunity to openly question them.
    And I would stipulate that most members on both sides of 
the aisle want the Administration to do well. We want to give 
the FBI the ability to win the war on terrorism. And we want to 
support our military.
    I mean, young men and women--18- and 19-years-old--have 
done an incredible job in Iraq. But let people see. And so 
there is not that opportunity with some to be open.
    And I think Director Mueller has been open, to the best of 
my knowledge. I do not feel that anything is closed.
    So I think that is part of the problem.
    One or two questions and then I will end then.
    Mr. Walker. Can I respond to that, Mr. Chairman, because I 
think it is directly on point?
    Clearly, I think there needs to be reasonable transparency 
in order to have appropriate accountability. That is essential 
in a democracy.
    Obviously, there are safety and security issues associated 
with anybody going into Iraq or Afghanistan. But this is an 
example too of where I think we can be of help to the Congress, 
because we have two people in Iraq right now. We are going to 
end up having more people go in on a one-time basis. Members 
need to go to. I am not saying in lieu of members.
    But there is work that needs to be done there in order to 
get the facts, in order to provide that information to the 
Congress so you can make informed judgments.
    My son just came back from Iraq. He is a Marine Corps 
company commander, and he just came back from Iraq.
    So I understand what you are saying. I think there is 
clearly a need for reasonable transparency and appropriate 
accountability there.
    The last thing I want to say is I want to thank Director 
Mueller and all of his staff for their cooperation. I also want 
to thank our staff for their work.
    Thank you, Mr. Chairman.
    Mr. Wolf. I was going to ask you, did you have any 
resistance both of you?
    And apparently, neither of you did.
    Mr. Thornburgh. None whatsoever, no.
    Mr. Wolf. What about the language issue? How are they doing 
on the language issue?
    Mr. Walker. They definitely need help there. There is no 
doubt about them. Clearly one of the areas where they have 
critical skills gaps would be in the language area. They are 
not the only agency that has that problem. We have a lot of 
people right now trying to hire people with Arabic and other 
language skills.
    And as you know, there are several dialects of Arabic.
    Mr. Wolf. Where do they train? Do you know, and this is a 
problem more appropriate to them, where they actually train the 
language people. Is it Monterey or the Foreign Service 
Institute?
    Mr. Walker. I think you need to ask them, Mr. Chairman.
    Mr. Wolf. The last one or two on the Hanssen and Luang 
espionage case, you think that the security division is a 
pretty good idea, both of you, I sense?
    But you said do not get it too large. Is that what you were 
saying?
    Mr. Thornburgh. Well, whatever it takes. These were 
terrible lapses. And I think that got the attention of everyone 
in the bureau, not just the top level. But obviously, a new 
format has been established, new skills are being brought to 
bear in a centralized responsibility for dealing with these 
kinds of problems.
    I think it is a giant step forward.
    Mr. Walker. We believe that the security division is 
necessary and part of it is to not only protect the country, 
but also protect the reputational integrity of the FBI.
    Mr. Wolf. When you went out and did the interviews and the 
issue with regard to sharing the information between the field 
and the headquarters, is the information flowing both ways? You 
know, the Phoenix memo issue? Is it flowing from there to here 
and here to there? Or how is that going?
    Mr. Walker. It is getting better. Not only the cultural 
change, but the technological enhancements that have been made 
in order to actually facilitate it happening.
    Mr. Thornburgh. I think, Mr. Chairman, if the virtual case 
file comes into being as its sponsors envision, it will be a 
revolutionary development in terms of the ability to 
effectively share information between headquarters and the 
field offices.
    But that is a big if. And it involves, not only the 
technology, but the culture of the organization.
    But the fact is that the Director is committed to it, and 
that sends a powerful message.
    Mr. Wolf. Well, I thank both of you. I am going to 
recognize Mr. Serrano. If we can ask you maybe what you could 
do, assuming the Bureau is willing and you both are willing, 
maybe for the next year to have a kind of a quarterly kind of 
check on these things, the comments that you made, the concerns 
that you have had and working with the director on a quarterly 
basis. I do not believe we need another congressional hearing 
every time to bring you up here.
    And I do appreciate the Director staying for the whole 
time. And both of you, the time and the effort that both of 
your people and you put in. But if both of you are willing, 
maybe we could set up a mechanism whereby for the next year you 
just do an every three months kind of a check to see that 
things are kind of moving on. And I think that would help.
    Do you think both of you, GAO and NAPA would be open to 
that?
    Mr. Serrano.
    Mr. Serrano. I just want to thank them for their service. 
And you know, you have given me encouragement that it is okay 
to ask questions on behalf of Congress. I am a New Yorker and 
we have an expression in New York which I think came from the 
Jewish community, which is when you say to somebody, How do you 
feel? They say, Don't ask.
    And don't ask does not mean do not ask. It means a lot of 
other things--I am feeling bad, you know, it is a bad day, the 
weather, the Yankees lost, the Dodgers moved out of town, 
whatever.
    But I think here, do not ask means do not ask. And that is 
what I am afraid of, that we have to ask and we have to get 
some answers.
    Thank you so much.
    Mr. Walker. Thank you.
    Mr. Thornburgh. Thank you.
    Mr. Wolf. Thank you both.
    Next will be Nancy Savage, president of the FBI Agents 
Association.
    Your full statement will appear in the record. And if you 
could summarize.
    Ms. Savage. I intended to. I know it is getting late this 
afternoon. And I will try to just summarize.
    Mr. Wolf. We are okay. We are okay.
    Ms. Savage. I will try to summarize just some of things 
that have been brought up.
    Mr. Wolf. Yes, anything you might want to comment on based 
on anybody else that has said anything.
                              ----------                              

                                          Wednesday, June 18, 2003.

                         FBI AGENTS ASSOCIATION


                                WITNESS

MS. NANCY SAVAGE, PRESIDENT, FBI AGENTS' ASSOCIATION

                    Opening Statement of Ms. Savage

    Ms. Savage. Mr. Chairman, Congressman Serrano, 
distinguished members of the subcommittee who have left, I 
wanted to recognize Chairman Frank Wolf for his dedication to 
the complex issues here. And I also wish to thank Congressman 
Serrano for his commitment to these issues, as well as his 
concerns.
    I know you expressed them last year, and it is something I 
have thought about for the last year because your concerns are 
something I think all FBI agents ask every day as we do our job 
with the authorities that we're granted.
    Thank you for inviting me to testify today to offer my 
perspective on this reorganization.
    I am a special agent assigned to the Portland division of 
the FBI, and I have worked for the FBI for 26 years, 6 as a 
personnel specialist and 20 as a special agent. So I am one of 
those senior agents I guess you need to worry about as we 
reorganize and change.
    I do want to make it clear that I am testifying today in my 
capacity as president of the FBI Agents Association, and not as 
an official representative of the FBI. I also think I am 
testifying today as an American. And I want to give you the 
unvarnished truth as I see it and as my members have expressed 
it to me.
    I want to emphasize that I strongly commend and thank 
Director Mueller for his vision and his leadership and steady 
hand at the FBI since becoming Director. He has made it clear, 
too, that he wants to hear from the agents and definitely wants 
to know our investigative concerns and wants to know what we 
want and what we think about to make our agency better and to 
improve it.

                      THE NEED FOR REORGANIZATION

    The FBI Agents Association endorses the organizational 
reforms Director Mueller has implemented. We know that law 
enforcement has changed dramatically since the attacks of 
September 11. The role of the Federal Bureau of Investigation 
(FBI) has had to shift, from one concerned with investigating 
violations of federal law and providing for national security, 
to identifying and preventing terrorist attacks on the U.S. and 
elsewhere.
    We prioritized counterterrorism, counterespionage efforts 
before September 11. We do have concerns that our personnel 
resources be supplemented in the immediate future so that other 
priority federal investigative areas are not indefinitely 
placed on the back burner.
    I know when you mentioned public corruption investigations 
not being handled, I cannot imagine that. They would be 
significantly high priority for us as well as the terrorism 
investigations.
    There are drug investigations and other white collar 
investigations that have been placed on hold or not pursued as 
vigorously as we would like to have them pursued.
    The reorganization plan has yet to be fully realized, as 
the other gentlemen who testified here have mentioned. We do 
believe in the Office of Intelligence. And we do believe that 
it being chaired by an Executive Assistant Director is a real 
strong sign that intelligence in the FBI is what is going to 
drive not only our counterintelligence and terrorism 
investigations, but also our criminal investigations.
    Besides working for the FBI for 26 years, I did work for 
the U.S. Army Intelligence Security Command before. And I know 
that the J2 was such a crucial position to have in any field 
office structure, to have that intelligence component, and to 
have it on that level is something that is extremely critical.
    And I guess I speak from my own background because I ran 
and worked with the first Criminal Intelligence Squad of the 
FBI down in Miami. And for 10 years I have been beating the 
intelligence drum along with a lot of my other cohorts, 
including Steve McCraw, who has been brought in as our 
Assistant Director of Criminal Intelligence. He was my 
counterpart in the Los Angeles division, and we have spent many 
a day and night talking and dreaming of putting intelligence 
where it needs to be in the FBI.
    So this is not something that was against our culture. We 
did not have the resources to do it, and we did not also, maybe 
at the top, have the total institutional commitment to it. I 
think we have got the institutional commitment, and I see in 
this reorganization the organizational structure to support it. 
I do not know that we have the personnel to do it.

          MAKING THE CASE FOR INCREASED INVESTIGATIVE SUPPORT

    I really liked what you said, Congressman Wolf, on 
investigative support positions. I talk to agents all over the 
country, and a few things that they are totally concerned 
about, the ones working terrorism before September 11 were 
really concerned that we did not have the laws in place to 
properly investigate terrorism investigations.
    There were agents totally dedicated, such as Ken Williams, 
the writer of the Phoenix electronic communication. They were 
practically chewing off their arms because they were so 
concerned about the terrorism threat in this country.
    We had 35 or 36 Joint Terrorism Task Forces dedicated to 
that. If I talked to any of those agents, they were just not 
sleeping at night sometimes because they did not have the laws 
that allowed them to do the investigations that we needed to 
do, or we were so bureaucratically encumbered with attorney 
general guidelines that did not make sense and internal 
processes within the FBI and Department of Justice (DOJ).
    That is no longer the case. And we also have probably 
enough agents working counterterrorism, given the state of 
things today, but we do not have enough resources in terms of 
just general clerical support to get the information handled. I 
think if you visited our field offices, you cannot share 
intelligence that is not taken from a hard copy form and 
uploaded if it is not dictated properly or promptly. Because 
the agents are so behind and do not have the support they need 
to pull their cases together, we are not going to get it out, 
other than immediate threat to life. We will get that out.
    But that intelligence information has to be moved, and we 
have to do it with investigative support positions and 
analytical positions. We have shifted resources to 
counterterrorism because the FBI has an ability to move 
qualified personnel instantaneously. As Mr. Thornburgh said, a 
good agent is a good agent. And in terrorism matters, one of 
the most important things was to follow the money. We moved 
great CPAs and our white-collar agents over to chase down the 
terrorism funding very effectively.
    We also moved our financial analysts and our intelligence 
research specialists that were working on complex drug 
investigations, white collar investigations, and public 
corruption investigations.
    They are virtually all, are dedicated because of a HIDTA 
restriction or an Organized Crime Drug Enforcement Task Force 
(OCDETF) restriction, dedicated to counterterrorism now. And 
that makes the process that much slower, when agents do not 
have the investigative support resources to do their jobs.
    Also, all of our violations are significantly more 
complicated and more complex than they were 20 years ago. And 
so the type of analytical resources--the connecting of the 
dots, the internationalization of crime--makes it critical that 
we look at a different process for investigations, that agents 
work hand in hand with intelligence analysts in almost every 
arena.
    And so if I were to look at one area, as well as 
supplementing back our drug investigators just because we get 
asked by all the state and local law enforcement officers to 
get back wholeheartedly in the drug game, I would ask you to 
supplement our budgets with additional investigative support 
and general clerical personnel to make us more effective.
    Otherwise, we have agents doing work that others would be 
doing, and probably not as effectively. And I think that is a 
human resource issue that tremendously needs to be dealt with 
in the FBI.

           INTELLIGENCE STRATEGIC AND CASE-ORIENTED ANALYSIS

    And I did want to speak a little bit to the thought of 
creating a separate intelligence and counterterrorism agency 
and leaving other investigative matters to us. I believe this 
is shortsighted, ill-informed, and reflective of a view that 
the FBI is too case oriented.
    A case is a collection of evidence. And I think that is 
important to remember. When we do our intelligence in the FBI, 
it should be forensic intelligence. It should be based on 
evidence and facts. Our American citizens deserve nothing less 
than a close collection of facts that can bear the scrutiny of 
the law, that can be looked at by a jury and a judge.
    And there is a difference in intelligence analysis. I am 
talking about both strategic analysis and case-oriented 
analysis.
    Still, the strategic analysis, to have it based on evidence 
and facts, it is absolutely critical. I would hate to see, and 
I know the agents of the FBI would hate to see, any movement 
away from that methodology, because I think it best supports 
not only our criminal justice system, but it also supports any 
kind of counterterrorism efforts that are underway. We need to 
know what is reality, what can be proven, and not based on 
simple assessments and projections.
    And I think we should applaud the FBI for its case-oriented 
culture, because I believe that we can, with effective legal 
cases, rid ourselves of terrorists in the United States and 
elsewhere. While other recourses may seem expedient, it is only 
through careful and aggressive case work that we will rid 
ourselves of this foe and maintain the cooperation of the 
American public, which I think is absolutely critical.
    They have to know that we are working just based on facts, 
that we are going to make cases that they can serve on a jury 
to decide not only what our procedures were and how we brought 
together this case and this collection of evidence but decide 
on the merits of the case whether the individual should be 
convicted.
    We are grounded in due process and legal rights. It is 
essential in the fight against terrorism, and it has stood us 
well during the last century during numerous serious threats. 
We work all the time in every type of violation to try to 
assess threats and make a case before the criminal act has been 
committed, through conspiracy law and through other violations 
of law. That is one of the first and foremost things that we 
learn in prioritization of our investigative work.
    If there is any threat to loss of life, or if you think 
anyone is involved in it, the most important thing we can do is 
try to assess what that conspiracy is, and then find a legal 
way to stop it, collecting the evidence along the way to do 
that in a lawful fashion.
    The belief that creating a new agency with a new name and a 
non-case-oriented mentality would be more effective at 
combating terrorism and addressing counterespionage is not 
something I believe is valid and will serve this country well.
    I still believe our case-oriented culture actually works 
very, very well for us, especially if we have had enough 
analysts and agents assigned to work every case, every threat, 
and every group that we see is actively involved in terrorism 
in this country.
    Experience has shown that criminal intelligence gathering 
is not program specific, and that is one of the reasons we like 
the Office of Intelligence, where intelligence can be 
synthesized from counterterrorism to counter-drugs, to white 
collar crime and to violent crime.
    The ability to have continued investigative jurisdiction 
and expertise in these varied areas is part of the FBI's 
strength and adds to our counterterrorism efficiency.
    Solid law enforcement skills with the multi-disciplinary 
investigative expertise, which is evidenced in our 56 Joint 
Terrorism Task Forces are key to this effort. We cannot 
sufficiently emphasize that a criminal investigative approach 
to both terrorism and preventative efforts is the only 
effective method of neutralizing this threat, and it must be 
done through joint efforts with our law enforcement partners.
    I explained to Congressman Rogers out in the hall that my 
training agent, my true training agent was a Jefferson County, 
Kentucky, drug detective who took me under his wing 20 years 
ago and taught me how to do federal investigations because he 
had worked so long with the FBI. I am eternally grateful to 
him.
    I learned at the FBI Academy 20 years ago, where I went 
through as one of the newer female agents at that time, to work 
with the National Academy, where we bring top law enforcement 
officials from around the world, and got support from those 
other law enforcement officials in my pursuit of the badge and 
credentials that I carry today.
    I also wanted to commend the Director for his reengineering 
efforts in terms of administrative processing at FBI 
headquarters. As I said in the past, he is not afraid of 
looking at any issue. And I know I have brought more than a few 
of them to his attention by seeing if we need to make changes 
and having an honest dialogue about them.

                  A NEW ERA OF INFORMATION TECHNOLOGY

    I want to applaud the Office of Training with oversight for 
our training and also the changes that we have made in 
technology in an extremely short period of time.
    FBI agents, luckily for all of us in this country, tend to 
be honest. Sometimes they are brutally honest. And I know 
before we had a little saying in the FBI as far as our 
technology: The FBI's technology delivers yesterday's 
technology tomorrow. That is no longer the case.
    And we are very excited about what we have already gotten 
in the last two years, especially in the last year, and also 
what we are about to receive based on the early viewing of the 
Virtual Case File.
    So that is something we are extremely happy about and we 
want to see encouraged. And we are happy that you are all 
supportive of it here.

            THE EXECUTIVE DEVELOPMENT AND SELECTION PROGRAM

    Another concern that I have had from agents around the 
country in addition to just the lack of needed support to 
investigations, is the FBI's Executive Development and 
Selection Program.
    In the last few years, spurred I believe by Director 
Mueller, they have made tremendous strides in implementing a 
new job validated mid-management selection system that promises 
to screen and select the most qualified mid-level, special 
agent managerial applicants.
    And these efforts are very, very worthy. They are a long 
time overdue. But we have not yet addressed the thorny problem 
of encouraging the best and brightest within the FBI to assume 
management positions and become our leaders.
    While we have many managers who have forsaken personal gain 
to assume supervisory positions, we have many who remain at the 
street agent level despite possessing leadership skills.
    The geographic and pay compression issues facing federal 
law enforcement are worsening, creating disincentives to a 
managerial structure like the military, requires numerous 
transfers between field and headquarters positions.
    I believe, as do many of my fellow street agents, we simply 
cannot fail to face and correct these inequities, or we will 
fail as an agency and as a country.
    There are no simple solutions, but there are a number of 
proposals now before Congress that address pay promotion and 
evaluation of federal law enforcement personnel that I believe 
also must be considered as part of the picture of effectively 
fighting the war on terrorism and the broader war on crime.
    These proposals are essential in reengineering the FBI's 
Executive Development and Selection System for our future law 
enforcement leaders.

                        CHANGING FACE OF THE FBI

    The FBI has a long and proud history, but it is also a 
dynamic history and one that has evolved with the changing face 
of crime in our nation's priorities.
    We remain America's first line of defense against national 
and international criminals, changing, I believe, when we need 
to. And we have certainly been in a tremendous era of change 
for the last 2 years.
    I would like to emphasize what I stated last year as to the 
FBI culture. Our culture is one of hard work and dedication to 
the citizens of this country and excellence in our endeavors. 
It does not need changing.
    We are changing our automation, and Congress has 
appropriately enacted laws on intelligence investigation and is 
in the process of funding our investigations with needed 
personnel and equipment.
    I have testified here that Steve McCraw, myself and others 
in the FBI for the last 10 years who were very much involved 
with the criminal intelligence process were thinking of ways, 
trying to get funding, and trying to change our organization to 
support criminal intelligence and all intelligence so that our 
investigations can be driven. So we know we are addressing the 
proper threat at the proper time.
    And that was part of our culture, but it was not allowed to 
be fully implemented. I think that is changing.
    I wanted to tell you, personally, I come from a family of 
FBI agents with my father and uncle before me wearing an FBI 
badge. When I graduated from the FBI Academy at Quantico, my 
father pinned his old badge on me and he reminded me to always 
honor the badge and the number printed on its back, 1776.
    He told me that the badge stood for a number of important 
things, but mainly he wanted me to always remember that the 
badge did not stand for the simple authority to incarcerate: it 
stood for the freedom of our country.
    We in the FBI Agents Association simply ask for the tools 
and structure to be effective in preserving the freedom of this 
country and all the rights of those who live here. With a few 
adjustments, I believe that the FBI, with the help of Congress, 
is ready to do so.
    Thank you very much. And if you have any questions for me, 
I would be glad to answer them.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 

        Mr. Wolf. Sure, thank you very much.
    We have one or two.

          FUNDING STAFFING LEVEL VS. ON BOARDS OF FBI OFFICES

    If I could ask the Director if you could just submit for 
the record--we are not going to ask you now--but how many 
clerical vacancies are there in the agency, in the Bureau?
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 

    
    And maybe we could get office by office. And not only the 
vacancies, but how many each office would need in order to do 
the job.

                        CAREER TRACKS IN THE FBI

    You do not have a concern that there is not a career track, 
that counterterrorism is a better career track, from criminal 
or criminal is a better career track. Do you think it is open 
now to both?
    Ms. Savage. I think it is open. Most agents try, especially 
when they are younger agents, to get a variety of backgrounds, 
because we find it is interchangeable and both supplement each 
other. If I get experience in white collar investigations and 
move over to the drug arena, I do a better job of following the 
money there. And I also do the same thing in counterterrorism.
    Most of our managers as they move up, when they are going 
to have oversight, say, as an Assistant Special Agent in 
Charge, are going to want to have a variety and breadth of 
experience in a variety of criminal areas, as well as 
counterterrorism and counterintelligence.

                   THE FBI'S ROLE IN THE WAR ON DRUGS

    Mr. Wolf. How about the drug issue with regard to the shift 
of 400 agents away?
    Ms. Savage. I believe that it was prudent at the time, 
given the situation. I also, you know, work day in and day out 
in a large rural county.
    Mr. Wolf. Have drugs dropped off in that county?
    Ms. Savage. Absolutely not. And you know, the sheriffs and 
the chiefs of police are knocking on the door asking the FBI to 
get back involved in the game.
    Mr. Wolf. I think the Administration is trying to get out 
of the meth business, are they not?
    Ms. Savage. The Administration is trying to get out of the 
meth business?
    Mr. Wolf. Well, some Members are asking that on the meth 
cases, the DEA is even backing away from some of the 
methamphetamine----
    Ms. Savage. Well, I am not aware of their position. I 
would--my sense of it is that methamphetamine is one of the 
most dangerous drugs internally in this country, because it 
results in so much violence against women and children.
    Mr. Wolf. There was a Member, I will not mention, who just 
talked to me. I will put it that way so there is no 
ramification from an area that I mean, I thought, was Little 
House on the Prairie, and he told me the number of meth labs 
that they had. It was unbelievable.
    And meth labs are now down in the beautiful Shenandoah 
Valley, down in my congressional district.
    Ms. Savage. There is a lot of rural methamphetamine. There 
is no doubt about it. In fact, the first drug case I worked was 
in rural Kentucky, a place called Hog Wallow, where we indicted 
13 people on methamphetamine production. They had, at that 
time, the second- or third-largest methamphetamine lab in the 
country.
    So they do concentrate in rural locations because of the 
smell of the cooking meth a lot of times.
    Mr. Wolf. So we have OxyContin now coming into urban areas, 
coming up into the Shenandoah Valley, coming into the 
Washington, D.C., area. You have the Colombia operations. You 
have the Taliban with regard to the poppies.
    So you do not see any diminishing drug activity in the 
world?
    Ms. Savage. Not from a law enforcement perspective. And I 
said if we have one area where we are really getting requests 
from state and local law enforcement, as you noted, because of 
the economy problems, their state and local responses are 
diminished. And they are looking to us more than ever to be 
participants.
    Mr. Wolf. So it may be prudent to have moved them out, but 
it may be now prudent to keep them where they are, but then to 
backfill so that you can get back up to the number.
    Ms. Savage. We are begging for that.
    Mr. Wolf. Mr. Serrano.
    Mr. Serrano. Thank you, Mr. Chairman.
    Thank you, Ms. Savage, for coming before us.
    It was, I think, very gratifying to hear that there is 
still this desire, and I know there is, for every agent to 
protect my rights as they get bad people who are committing bad 
crimes.

                                 MORALE

    You spoke about morale. And everyone has said that people 
are feeling that they have a job to do and to do it properly 
and so on.
    Are we in danger at all that the pressure since September 
11, the change in the duties, the new emphasis on 
counterterrorism, could jeopardize that morale? I mean it is a 
big change. You had everybody doing one job, basically, and now 
the world and the country is saying, You guys are going to 
protect us from the next attack. And, I mean, that is a heavy 
burden to carry.
    Ms. Savage. I think if anything, we all worry that maybe we 
are not doing everything 100 percent as well as we could or 
should be doing for this country because of limited resources. 
If anything, you go to bed at night thinking about that, and 
you try to prioritize as best as you can, and can only imagine 
what the Director worries about along those same lines.
    But I think every FBI employee, with their given 
responsibilities and duties, is very, very concerned about 
that. Are we stretched too thin? Are we able to do the job just 
as well as the American public deserves to have from the FBI?

               THE FBI'S ROLE IN PROTECTING CIVIL RIGHTS

    Mr. Serrano. It is interesting that you say that about what 
agents may think about at night because for members of Congress 
like myself, when I think about the FBI, it is a historically 
mixed feeling. In other words, I know that I certainly don't 
want the job that you have. I could not face the daily 
responsibility of being the one that people see as being able 
to save us from the next attack of multi-problems. And that 
part, I understand, I respect, I support, as I have on this 
committee and in public.
    And then there is the historical problem with a certain 
time in the history of the FBI, when some members of the FBI 
went and did just the opposite, they threw away the 
Constitution and they ruined careers. And I call your attention 
to an issue that I have been dealing with in my office with the 
Bureau for awhile now. And Director Mueller has been great at 
getting the information out.
    And that was that infamous program that just about single-
handedly ruined any opposition to the commonwealth relationship 
between Puerto Rico, where I was born, and the United States. 
That was the Independence Movement. And Puerto Rico was 
criminalized by the FBI for a long, long time. And issues were 
fabricated and lives were destroyed simply because some people, 
a smaller, but significant group--We like the U.S. but we think 
the next relationship should be independence for the island.
    And that, files from 1934 on that I have been receiving, 
that are now under study by the government of the Commonwealth 
of Puerto Rico and by scholars in Puerto Rico and New York, 
show a pattern, a sad pattern, of taking people--I mean, I see 
the first--1930-something--memo. There is a gentleman in charge 
of the Independence Movement, who speaks five languages, who 
writes for the local newspaper, who has great leadership 
qualities, and who is going to run pro-independence candidates 
in the next election and, therefore, he is a problem.
    When I read that, I fell apart. I said, wait a minute. He 
is going to participate in an election. He speaks. He writes in 
the newspapers. This is a great American. And yet he went on 
for 27 years of his life under the FBI scrutiny.
    So I know what you are saying because I am a big fan of the 
FBI. Of course, if my friends from the 1960s hear me, they will 
throw me out of Congress.
    At the same time, I worry that my support could be leading 
to another time when abuses take place. Do you folks think 
about that too?
    Ms. Savage. I think we wrestle and effectively do it just 
with our investigations. We try to look at everything we do in 
terms of what is fair and what is right. And you definitely 
have enough on your plate that you want to sift the wheat from 
the chaff real fast and just hold on to the kernels of real 
criminals and not get involved in individuals that are just 
exercising their constitutional rights and that may have a 
little bit of a different idea than someone else.
    So we look at that all the time. We definitely did after 
September 11, trying to sort through who is a terrorist and who 
may just be someone who is Islamic or Muslim or have certain 
ties to certain organizations.
    So we definitely wanted to look at and make sure that 
before we pursued any investigation that there was a clear-cut 
criminal nexus. And that is one of the things that I think is 
so critical in trying to keep counterterrorism tied to our 
criminal investigative methodology and the due process that we 
are trained in.
    I mean we look at it all the time just in terms of 
fairness. We discuss it with our prosecutors, because a lot of 
times there will be both an ability to have something 
prosecuted in state court as well as federal court, and one or 
the other would have greater penalties for the defendant, so to 
speak.
    And we try to come up with something. And the state and 
federal prosecutors get together with the local agents and the 
local police and try to come up with something that is fair, 
say, something that we could prosecute under federal authority 
based on a terrorism statute with an anthrax threat. And maybe 
it was an offhand comment, and it really just deserves 
prosecution, not 20 years in jail under a federal statute.
    Maybe it deserves prosecution to try to deter this, but it 
deserves state prosecution.
    So we wrestle with those issues of fairness all the time. 
We are insistent that we look at having a criminal orientation 
to our intelligence, because the criminal orientation ends up 
focusing on facts and evidence, not supposition and 
extrapolation.
    And that is one of the reasons why we think it is so 
important to be really grounded and focused in due process, so 
that rights are not trampled. And that is what is done and the 
investigations that are pursued are done jointly, hand in hand, 
with our prosecutors who are looking at the rights of all. I 
think it is important.

                   MEETING TRAINING NEEDS OF THE FBI

    Mr. Serrano. It certainly is. And you keep using the word 
training, so let me just take you to another spot. You spoke 
about it before, but I want you to elaborate. Is the training 
adequate for today's world and for the new mission at the FBI?
    Ms. Savage. We have gone full steam ahead in developing 
different training modules in terms of, you know, virtual 
academy, having on line training. We reprioritized for 
terrorism training for our agents.
    I have said before, I think to Ms. Albright, I think we 
need additional training in informant handling. They are at 
least as dangerous as drugs and certainly as firearms. We get 
trained on that a lot. And these are areas that I know we are 
supplementing and prioritizing additional training, training 
for our analysts, training for our new agents, because we have 
a very new work force.
    We definitely need training for our managers and training 
for all agents, not only in the areas you are talking about as 
due process, and just to keep our conscience sharp when we 
wrestle with investigative strategies. Knowledge is exploding 
in this world and information is exploding and we have to be 
able to cull out and impart very quickly the type of 
information and training and skills that our agents need.

               IMPACT OF REORGANIZATION ON FBI PERSONNEL

    Mr. Serrano. Let me ask one last question, Mr. Chairman.
    When there is a reorganization as big as this one, people 
move. Some are asked to leave. Some leave on their own. Some 
don't want changes. You know, We never used to do it that way, 
they would say and, Why am I going to do this?
    And there have been newspaper reports that there have been 
changes at headquarters, if you will. Do you see that 
reorganization affecting agents to the point where a 
significant percentage would say, I do not want to do this 
anymore? I am not talking about the stress level or anything 
like that, or the new mission, but inertia because they may not 
want to go along with whatever the new reorganization is.
    Ms. Savage. I think there is just for a small amount of 
people, if you are ready to retire anyway and you are eligible 
to do so, you might not want to bite off the next change.
    Most of our senior people are pretty anxious to see some of 
these things come about. Like I testified before, I mean, we 
were just absolutely hungry for the criminal intelligence 
prioritization that the FBI is now giving us. Agents are 
extremely hungry for new technology.
    So I think overall most people are going to be very, very 
happy about it. You know, there are always a few people who are 
sort of at the end of their career. I do not know many people 
that are leaving mid-career for that reason.
    If we lose people early in their careers, it is because of 
locality pay problems in some of the high cost-of-living areas. 
Right now we are losing people, good, qualified young agents 
that we have hired in high cost-of-living areas going over to 
the agency and to the military due to pay disparities that they 
have been able to, somehow through their personnel systems, to 
deal with that we have not. Those are the calls I get. That is 
the information I receive.
    Mr. Serrano. Well, we will in this committee deal with that 
as much as we can with the intent of making the situation 
better.
    Let me take this opportunity through you and publicly to 
thank the agents for the work that they do. And I made a 
conscious decision some time ago, when I became Ranking Member 
of this Committee, that, for those of us that have concerns 
about past behavior and possible future behavior, it is better 
to be supportive of the Bureau and try to nudge it so the 
changes that it is making are positive rather than to be a 
critic outside who then does not get to be an inside player, if 
you can be an inside player with the FBI.
    But you know what I am talking about, to try to be 
supportive. And I like the respect and the comments that we are 
getting in return. And I am hopeful that this new FBI will not 
just reorganize itself the way you have to, but the way that I 
would want it to, so it never again becomes what it once was 
for a little while.
    So take it from a political child of the 1960s, that I am a 
supporter of what you do, of what the agents do. And that I 
hope that they always keep in mind that yes, we put a lot on 
your shoulders, but there is even more riding on your 
shoulders, and that is the Constitution and the civil liberties 
of every member of this society.
    And I thank you for your service to our country.
    Ms. Savage. Thank you very much. I think most agents concur 
with your thoughts and embrace them.

             ALLOCATION OF APPROPRIATED MONEY FOR TRAINING

    Mr. Wolf. Just in summary, Ms. Savage, thank you for your 
testimony. You probably feel very comfortable being in 
Washington with all this rain, and you probably think you are 
back home in Portland.
    Ms. Savage. The weather is better out there right now.
    Mr. Serrano. You know, they may get the Expos in Portland
    Mr. Wolf. A couple of things in closing. I hope, and this 
is kind of directed to the Director, too, on the allocation of 
the money that has been appropriated, otherwise it makes it 
very difficult to come and when it is kind of hanging out 
there. Also on advanced study, I think it would be helpful to 
let agents know that these programs are available.
    I assume you have many agents in your association who would 
love to take a year off and go and get training.
    Ms. Savage. You know, I was thrilled to hear you say that 
because we always wondered why the FBI did not do what the 
military does.
    Mr. Wolf. You have it now. You have it. But once the FBI 
gets the memorandum, you should get it out. And I do not think 
you can kind of phase it in, so there is kind of some 
opportunity. And obviously, their people come back, who are 
better trained, better skilled to do what they are going to do.
    Hopefully, you can get the technical advisory group up and 
running, particularly since Trilogy is a big issue.
    And in the MI-5, I think the Administration really has to 
speak out. You can not hide the light under a bushel basket. I 
mean, that is in the Bible and it is true. You never tell 
people what you are going to do, then one day you are going to 
wake up and find out that a bad thing has been done and it has 
not been good for the country.
    The TTIC is not authorized. There is no authorization for 
the TTIC. It is just kind of hanging out there. No 
authorization, hanging out. Who does it belong to?
    And so, I really think this has to be settled one way or 
the other. And I think I know how I would settle it. I have 
even thought of just introducing legislation to make the TTIC 
permanent and make it truly independent. But I think the 
Administration does have to do that.

                       IMPORTANCE OF FAMILY LIFE

    Lastly, both for the agents and also for the Director, 
people who serve, who do good and sometimes can get wrapped up 
in doing good that they end up neglecting home. And so agents 
have to be moms and dads and husbands and wives. And so you 
have to balance this out. You really cannot.
    Harry Chapin's song; Cat's in the cradle, silver spoon, 
Little Boy Blue, when are you coming home, Dad? I do not know 
when. You know, when we solve terrorism, I will be home, but I 
do not know when.
    You really do need to make sure that you are spacing this 
and the agents are not burning out. And you can do a lot for a 
short period of time, but you cannot do it forever. And then 
you end up having impacts on families, on spouses, on children, 
no Little League games, no PTA, missing the graduations.
    And so I think the agents in the Bureau and your 
association has to make sure that you are also in the process 
of what you are doing, you are protecting families. Because 
long after you leave the FBI, you will have a husband, a wife 
and a son and daughter and grandkids and all of those things.
    So with that, I thank you for your testimony. I thank the 
Director and thank NAPA and the GAO.
    And I think if we can actually do the same thing that we 
are going to ask NAPA to on a quarterly basis just kind of take 
a look at this. If that is okay?
    Ms. Savage. Absolutely.
    Mr. Wolf. Good. Thank you very much. The hearing is 
adjourned.
    Thank you.
    Ms. Savage. Thank you.


                           W I T N E S S E S

                              ----------                              
                                                                   Page
Mueller, Robert..................................................     1
Savage, Nancy....................................................    67
Thornburgh, Richard..............................................    48
Walker, David....................................................    45


                               I N D E X

                              ----------                              
                                                                   Page

             Federal Bureau of Investigation Reorganization

A New Era of Information Technology..............................    71
Allocation of Appropriated Money for Training....................    86
American Civil Liberties Union Speech............................    27
Authority and Responsibility.....................................     4
Authority in Arresting Immigration Violators.....................    44
Balancing Civil Rights, Civil Liberties, and Law Enforcement.....    23
Career Tracks in the FBI.........................................    82
Changing Face of the FBI.........................................    72
Chinese Spy Policy and Detailees to the CIA......................    41
Civil Rights and Ethics Training for FBI Agents..................    26
Communications Between Intelligence Agencies.....................    30
Congressman Serrano on the FBI's Reorganization..................     3
Counterterrorism Operations......................................    29
Creation of Executive Assistant Director for Intelligence........    40
Drugs and Terrorism..............................................    33
Establishment of Domestic Intelligence Agency....................    20
Establishment of FBI Advisory Board..............................    43
FBI Agent Staffing Levels........................................    18
Field Office Structure Reorganization............................    42
Focus on Agencies' Intelligence Capabilities.....................    34
Funding Staffing Level Versus On-Boards of FBI Offices...........    80
Graduate School Opportunities for FBI Agents and Analysts........    39
Homeland Security and TTIC.......................................    33
Impact of Reorganization on FBI Personnel........................    85
Importance of Family Life........................................    87
Information Technology........................................... 2, 30
Information Technology Oversight.................................    37
Intelligence Strategic and Case-Oriented Analysis................    70
Jose Padilla.....................................................    26
Making the Case for Increased Investigative Support..............    68
Meeting Training Needs of the FBI................................    85
Modernization of FBI Technology..................................    36
Morale...........................................................    83
National Security and War on Terrorism...........................     7
One Government-Wide Security Clearance...........................    38
Opening Remarks of Chairman Wolf.................................     1
Opening Statement of Director Mueller............................     5
Opening Statement of Ms. Savage..................................    67
Patriot Act......................................................    43
Public Corruption................................................    19
Public Corruption and White Collar Crime.........................    20
Redirecting Priorities...........................................     6
Relocating Counterterrorism Division.............................    22
Reorganization...................................................     5
Reorganization of the FBI........................................    39
Report on September 11th Detainees...............................    24
Restructuring....................................................     2
Restructuring and Reengineering the FBI..........................     6
Shifting Agent and Staffing Priorities...........................    27
Terrorist Threat Integration Center..............................21, 31
The Executive Development and Selection Program..................    71
The FBI's Role in Protecting Civil Rights........................    83
The FBI's Role in the War on Drugs...............................    82
The Need for Reorganization......................................    68
Threat Determination Process.....................................    35
Trilogy Reprogramming............................................    42
TTIC and 2003 Wartime Supplemental...............................    41

                                  <all>

</pre></body></html>
